S h a w v. S a c r a m e nt o C o u nt y S h e riff’ s D e p’t. et al.

A P P E N DI X

FI L E D

N O T F O R P U B LI C A TI O N

J U N 23 2020

U NI T E D S T A T E S C O U R T O F A P P E A L S

M O L L Y C. D W Y E R, C L E R K
U. S. C O U R T O F A P P E A L S

F O R T H E NI N T H CI R C UI T
S H E E N A S H A W,

N o.

Pl ai ntiff -A p p ell a nt,
v.
S A C R A M E N T O C O U N T Y S H E RI F F' S
D E P A R T M E N T; et al.,

1 8 -1 7 1 8 4

D. C. N o.
2: 1 6 -c v -0 0 7 2 9 -T L N -C K D
ME M OR A N D U M

*

D ef e n d a nts -A p p ell e es.
A p p e al fr o m t h e U nit e d St at es Distri ct C o urt
f or t h e E ast er n Distri ct of C alif or ni a
Tr o y L. N u nl e y, Distri ct J u d g e, Pr esi di n g
Ar g u e d a n d S u b mitt e d M a y 1 1, 2 0 2 0
S a n Fr a n cis c o, C alif or ni a
B ef or e: R. N E L S O N a n d B R E S S, Cir c uit J u d g es, a n d G WI N,

**

Distri ct J u d g e.

S h e e n a S h a w w as arr est e d b y d e p uti es fr o m t h e S a cr a m e nt o C o u nt y
S h eriff’s D e p art m e nt o n A pril 5, 2 0 1 4, d et ai n e d o v er ni g ht, a n d r el e as e d t h e n e xt
d a y . T w o y e ars a n d o n e d a y aft er t h e arr est, s h e fil e d a c o m pl ai nt u n d er 4 2 U. S. C.

*

T his dis p ositi o n is n ot a p pr o pri at e f or p u bli c ati o n a n d is n ot pr e c e d e nt
e x c e pt as pr o vi d e d b y Ni nt h Cir c uit R ul e 3 6 -3.
**

T h e H o n or a bl e J a m es S. G wi n, U nit e d St at es Distri ct J u d g e f or t h e
N ort h er n Distri ct of O hi o, sitti n g b y d esi g n ati o n.

1a

§ 1 9 8 3 a g ai nst t h e S h eriff’s D e p art m e nt, as w ell s e v er al d e p uti es, b as e d o n t he
e v e nts s urr o u n di n g t h e arr est. T h e distri ct c o urt gr a nt e d a m oti o n t o dis miss t h e
c o m pl ai nt as ti m e b arr e d , a d e cisi o n w e r e vi e w d e n o v o. Gr e g g v. H a w., D e p’t of
P u b. S af et y , 8 7 0 F. 3 d 8 8 3, 8 8 6 – 8 7 ( 9t h Cir. 2 0 1 7). W e h a v e j uris di cti o n u n d er 2 8
U. S. C. § 1 2 9 1 a n d affir m i n p art a n d r e v ers e i n p art.
1.

1

T h e distri ct c o urt c orr e ctl y h el d t h at t olli n g w as n ot a v ail a bl e u n d er

C alif or ni a C o d e of Ci vil Pr o c e d ur e s e cti o n 3 5 2. 1, w hi c h t olls t h e st at ut e of
li mit ati o ns d uri n g t h e ti m e “ a p ers o n ” is “i m pris o n e d o n a cri mi n al c h ar g e. ” U n d er
t h e C alif or ni a C o urt of A p p e al’s d e cisi o n i n A usti n v. M e di cis — w hi c h w e ar e
“ o bli g at e d t o f oll o w ” i n t h e a bs e n c e of e vi d e n c e t h at t h e C alif or ni a S u pr e m e C o urt
w o ul d r ul e t o t h e c o ntr ar y, R y m a n v. S e ars, R o e b u c k & C o. , 5 0 5 F. 3 d 9 9 3, 9 9 5 ( 9t h
Cir. 2 0 0 7) (i nt er n al q u ot ati o n m ar ks o mitt e d)— th e p hr as e “i m pris o n e d o n a
cri mi n al c h ar g e ” m e a ns “s er vi n g a t er m of i m pris o n m e nt i n t h e st at e pris o n. ” 2 3 0
C al. R ptr. 3 d 5 2 8, 5 4 2 ( Ct. A p p. 2 0 1 8) , r e vi e w d e ni e d (J u n e 1 3, 2 0 1 8). S h a w h as
n ot all e g e d t h at s h e w as s er vi n g a t er m of i m pri s o n m e nt, nor t h at s h e w as d et ai n e d
i n a st at e pris o n. S o t h e distri ct c o urt w as c orr e ct t o h ol d t h at h er o n e-d a y
d et e nti o n i n a c o u nt y j ail di d n ot e ntitl e h er t o t olli n g u n d er C alif or ni a C o d e of
Ci vil Pr o c e d ur e s e cti o n 3 5 2. 1. I d. at 5 4 3 ; s e e als o B d. of R e g e nts o f U ni v. of N. Y.
1

W e d e n y as m o o t S h a w’s M oti o n t o St a y S etti n g C as e f or Or al Ar g u m e nt . T h at
m oti o n w as pr e mis e d u p o n S h a w’s fili n g of a s u p pl e m e nt al o p e ni n g bri ef, w hi c h
s h e di d b ef or e or al ar g u m e nt.
2

2a

v. T o m a ni o , 4 4 6 U. S. 4 7 8, 4 8 4 ( 1 9 8 0) ( e x pl ai ni n g t h at “ a st at e st at ut e of
li mit ati o ns a n d t h e c o or di n at e t olli n g r ul es ” ar e “ bi n di n g r ul es of l a w ” i n a § 1 9 8 3
c as e) .2
2.

S h a w als o ar g u es s h e is e ntitl e d t o t olli n g of t h e st at ut e of li mit ati o ns

u n d er C alif or ni a G o v er n m e nt C o d e s e cti o n 9 4 5. 3 , w hi c h t olls t h e st at ut e of
li mit ati o ns i n c ert ai n c as es f or t h e p eri o d d uri n g w hi c h “ c h ar g es ar e p e n di n g b ef or e
a s u p eri or c o urt .” B ut s h e di d n ot r ais e t his ar g u m e nt i n h er o p p ositi o n t o t h e
C o u nt y’s m oti o n t o dis miss. I nst e a d, s h e r ais e d it f or t h e first ti m e i n a m oti o n f or
r e c o nsi d er ati o n of a m a gistr at e j u d g e or d er st a yi n g dis c o v er y p e n di n g a r uli n g o n
t h e m oti o n t o dis miss. T h e iss u e w as t h er ef or e w ai v e d, a n d w e d e cli n e t o e x er cis e
o ur dis cr eti o n t o c o nsi d er it f or t h e first ti m e o n a p p e al. S e e J a n es v. W al -M art
St or es I n c. , 2 7 9 F. 3 d 8 8 3, 8 8 8 n. 4 ( 9t h Cir. 2 0 0 2) .
3.

H a vi n g d e ci d e d S h a w is n ot e ntitl e d t o t olli n g , w e n o w d e ci d e

w h et h er h er cl ai ms ar e b arr e d b y t h e t w o-y e ar st at ut e of li mit ati o ns. J o n es v.
Bl a n as , 3 9 3 F. 3 d 9 1 8, 9 2 7 ( 9t h Cir. 2 0 0 4); C al. C o d e Ci v. Pr o c. § 3 3 5. 1. All b ut
o n e of S h a w’s cl ai ms a c cr u e d o n A pril 5, 2 0 1 4, b e c a us e t h at w as t h e d a y s h e k n e w
or h a d “r e as o n t o k n o w of t h e i nj ur y w hi c h is t h e b asis” f or h er cl ai ms. Ki m es v.

2

S h a w ar g u e d i n a s u p pl e m e nt al bri ef t h at t h e M e di cis d e cisi o n s h o ul d n ot b e
a p pli e d r etr o a cti v el y. W e d e cli n e t o c o nsi d er t his ar g u m e nt b e c a us e it w as n ot
r ais e d i n S h a w’s o p e ni n g bri ef. S e e Br o w n v. R a ws o n -N e al Ps y c hi atri c H os p. , 8 4 0
F. 3 d 1 1 4 6, 1 1 4 8 – 4 9 ( 9t h Cir. 2 0 1 6).

3a

3

St o n e , 8 4 F. 3 d 1 1 2 1, 1 1 2 8 ( 9t h Cir. 1 9 9 6) (i nt er n al q u ot ati o n m ar ks o mitt e d).
T h os e cl ai ms — br o u g ht i n t h e A pril 6 , 2 0 1 6 c o m pl ai nt— w er e t h er ef or e ass ert e d
o n e d a y l at e a n d ar e b arr e d b y t h e t w o -y e ar st at ut e of li mit ati o ns . S h a w’s f als e
arr est cl ai m, h o w e v er, di d n ot a c cr u e u ntil “t h e all e g e d f als e i m pris o n m e nt
e n d[ e d] ” o n A pril 6, 2 0 1 4. W all a c e v. K at o , 5 4 9 U. S. 3 8 4, 3 8 9 ( 2 0 0 7). T h us, t h a t
cl ai m is n ot b arr e d b y t h e t w o-y e ar st at ut e of li mit ati o ns. W e t h er ef or e affir m t h e
distri ct c o urt’s dis miss al of all c a us es of a cti o n ot h er t h a n S h a w’s cl ai m f or f als e
arr est. As t o t h at cl ai m, w e r e v ers e a n d r e m a n d wit h i nstr u cti o ns to c o nsi d e r, i n
t h e first i nst a n c e, w h et h er t h e f als e arr est cl ai m is a d e q u at el y pl e d or b arr e d b y
S h a w’s n ol o c o nt e n d er e pl e a . E a c h p art y will b e ar its o w n c osts.
A F FI R M E D I N P A R T; R E V E R S E D I N P A R T.

4a

4

C a s e: 1 8- 1 7 1 8 4, 0 8/ 1 8/ 2 0 2 0, I D: 1 1 7 9 2 8 4 3, D kt E ntr y: 6 4, P a g e 1 of 1

FI L E D

U NI T E D S T A T E S C O U R T O F A P P E A L S

A U G 18 2020

F O R T H E NI N T H CI R C UI T

M O L L Y C. D W Y E R, C L E R K

S H E E N A S H A W,
Pl ai ntiff -A p p ell a nt,
v.
S A C R A M E N T O C O U N T Y S H E RI F F' S
D E P A R T M E N T; et al.,

N o.

U. S. C O U R T O F A P P E A L S

1 8 -1 7 1 8 4

D. C. N o.
2: 1 6 -c v -0 0 7 2 9 -T L N -C K D
E ast er n Distri ct of C alif or ni a,
S a cr a m e nt o
OR DER

D ef e n d a nts -A p p ell e es.
B ef or e: R. N E L S O N a n d B R E S S, Cir c uit J u d g es, a n d G WI N,

*

Distri ct J u d g e.

Pl ai ntiff -A p p ell a nt fil e d a p etiti o n f or r e h e ari n g a n d r e h e ari n g e n b a n c o n
J ul y 2 4 , 2 0 2 0 ( D kt. E ntr y 6 3 ). T h e p a n el h as v ot e d t o d e n y t h e p etiti o n f or
r e h e ari n g. J u d g es R. N els o n a n d Br ess h a v e v ot e d t o d e n y t h e p etiti o n f or
r e h e ari n g e n b a n c, a n d J u d g e G wi n s o r e c o m m e n ds.
T h e f ull c o urt h as b e e n a d vis e d of t h e p etiti o n f or r e h e ari n g e n b a n c a n d n o
j u d g e of t h e c o urt h as r e q u est e d a v ot e o n w h et h er t o r e h e ar t h e m att er e n b a n c.
F e d. R. A p p. P. 3 5.
T h e p etiti o n f or r e h e ari n g a n d r e h e ari n g e n b a n c is D E NI E D .

*

T h e H o n or a bl e J a m es S. G wi n, U nit e d St at es Distri ct J u d g e f or t h e
N ort h er n Distri ct of O hi o, sitti n g b y d esi g n ati o n.

5a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 of 2 7

N o. 1 8- 1 7 1 8 4
U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E NI N T H CI R C UI T

SHEE

NA

SHA

,

W

P l ai ntiff a n d A p p ell a nt ,
v.
SAC

RA ME NT O

C

O U NTY

SHE

RI F F ’S

D

EPA RTME NT ET AL

.,

D ef e n d a nt s a n d A p p ell e e s .

O n A p p e al f r o m t h e U nit e d St at e s Di st ri ct C o u rt f o r t h e E a st e r n
Di st ri ct of C alif o r ni a
T r o y L. N u nl e y, Di st ri ct J u d g e, P r e si di n g
P etiti o n f o r P a n el R e h e a ri n g a n d R e h e a ri n g E n B a n c

J eff D o mi ni c P ri c e S B N 1 6 5 5 3 4
2 5 0 0 Br o a d w a y , S uit e 1 2 5
S a nt a M o ni c a, C alif or ni a 9 0 4 0 4
T el
3 1 0 4 5 1 -2 2 2 2
Att or n e y f or Pl ai ntiff -A p p ell a nt

6a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 of 2 7

T a bl e of C o nt e nts
P a ge
T a bl e of A ut h oriti es ....................................................................

iii

F e d. R . A p p. P. 3 5 St at e m e nt ......................................................

1

B a c k gr o u n d ..................................................................................

3

Ar g u m e nt .....................................................................................

4

A.

B.

C.

T h e p a n el’s u n p u blis h e d m e m or a n d u m dis p ositi o n
c o nfli cts wit h Elli ott, a pr e c e d e nti al o pi ni o n, a n d
vi ol at es Cir c uit R ul e 3 6 - 2 ................................................

4

1.

Elli ott v. Cit y of U ni o n Cit y is t h e l a w i n t his Cir c uit.

4

2.

T h e p a n el disr u pt e d t h e u nif or mit y of t his c o urt’s
d e cisi o ns b y vi ol ati n g Cir c uit R ul e 3 6 - 2 ....................

6

T h e C alif or ni a S u pr e m e C o urt w o ul d n ot a d o pt t h e
r e as o ni n g of A usti n v. M e di cis, 2 1 C al. A p p. 5t h 5 7 7 ( 2 0 1 8)

8

1.

A usti n is n ot t h e o nl y C alif or ni a a p p ell at e c o urt
d e cisi o n t h at h as a d dr ess e d s e cti o n 3 5 2. 1 .................

8

2.

A usti n mis c o nstr u e d t h e l e gisl ati v e hist or y of
s e cti o n 3 5 2. 1 ..............................................................

9

3.

A usti n f o u n d a m bi g uit y w h er e n o n e e xist e d t o
i m p os e a n u nt e n a bl e c o nstr u cti o n o n s e cti o n 3 5 2. 1,
vi ol ati n g a c ar di n al r ul e of st at ut or y c o nstr u cti o n .....

10

It is of e x c e pti o n al i m p ort a n c e t o sto p t h e c o nf usi o n a n d
c o nfli ct e xisti n g i n t h e distri ct c o urts i n C alif or ni a
b e c a us e of A usti n, m a d e w ors e b y t h e p a n el’s d e cisi o n ...

12

i

7a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 3 of 2 7

C o n cl usi o n ..................................................................................

14

C ertifi c ati o n P urs u a nt t o F R A P 3 2( a)( 4) -( 6) ...............................

--

D e cl ar ati o n of S er vi c e .................................................................

--

ii

8a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 4 of 2 7

T a bl e of A ut h o riti es
P a ge
C as es
Al a niz v. E nt erli n e ,
2 0 2 0 W L 2 3 0 8 9 3 ( N. D. C al. J a n. 1 5, 2 0 2 0) .................................... 1 3
A usti n v M e di cis,
2 1 C al. A p p. 5t h (2 0 1 8) ........................ 1, 2 , 3, 4, 7, 8, 9, 1 0, 1 1 , 1 2, 1 3
B ar os v . R a mir ez,
2 0 1 9 W L 3 8 4 9 1 7 1 ( C. D. C al. J u n. 5, 2 0 1 9) .................................... 1 2
B ell v. M a h o n e y ,
2 0 1 9 W L 6 7 9 2 7 9 3 ( C. D. C al. A u g. 2 9, 2 0 1 9) ................................. 1 3
Bl e dst ei n v S u p eri or C o urt,
16 2 C al. A p p. 3 d 1 5 2 ( 1 9 8 4) ................................................................ 9
Bri c e n o v S cri b n er,
5 5 5 F. 3 d 1 0 6 9 ( 9t h Cir. 2 0 0 9) ............................................................ 8
Elli ott v. Cit y of U ni o n Cit y ,
2 5 F. 3 d 8 0 0 ( 9t h Cir. 1 98 6 ) ....................... 1, 2, 3, 4, 5, 6, 7 , 8, 1 2, 1 3
Fl or es -R a mir ez v. T hr e e U n k n o w n F e d er al T as k F or c e A g e nts ,
2 0 2 0 W L 3 0 3 8 1 2 8 ( C. D. C al. A pr. 1 4, 2 0 2 0) .................................. 1 3
H art v M as sa n ari ,
2 6 6 F. 3 d 1 1 5 5 ( 9t h Cir. 2 0 0 1) .................................................... 1, 2, 5
J o h ns o n v. C o u nt y of S a nt a Cl ar a ,
2 0 2 0 W L 8 7 0 9 3 3 ( N. D. C al. F e b. 2 1, 2 0 2 0) .................................... 1 2

iii

9a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 5 of 2 7

K a k o ws ki v. C o u nt y of S a cr a m e nt o ,
2 0 2 0 W L 1 0 4 6 5 6 4 ( E. D. C al. M ar. 4, 2 0 2 0) ................................... 1 2
K u n g ys v. U nit e d St at es ,
4 8 5 U. S. 7 5 9 ( 1 98 8 ) ......................................................................... 1 1
L u c k ett v. S u b ur y ,
2 0 2 0 W L 3 4 0 2 2 5 1 ( S. D. C al. J u n. 1 8, 2 0 2 0) .................................. 1 2
Mill er v. N aj er a ,
2 0 2 0 W L 7 3 1 1 7 6 ( E. D. C al. F e b. 1 3, 2 0 2 0) .................................... 1 2
Mit c h ell v. Gr e e n o u g h ,
1 0 0 F. 2 d 1 8 4 ( 9t h Cir. 1 9 3 8) .............................................................. 6
R uiz v. A h er n ,
2 0 2 0 W L 4 0 0 1 4 6 5 ( N. D. C al. J ul. 1 5, 2 0 2 0) ............................... 7, 1 2
R y m a n v. S e ars, R o b u c k & C o.,
5 0 5 F. 3 d 9 9 3 ( 9t h Cir. 2 0 0 7) .............................................................. 1
S e k er k e v. H o o d e n p yl e ,
2 0 2 0 W L 9 1 4 8 8 5 ( S. D. C al. F e b. 2 6, 2 0 2 0) .................................... 1 3
S h a w v. S a cr a m e nt o C o u nt y S h eriff's D e p art m e nt et. al,
3 4 3 F e d. S u p p. 3 d 9 1 9 (E. D. C al. 2 0 1 8 ) ............................................ 1 3
S h a w v. S a cr a m e nt o C o u nt y S h eriff's D e p art m e nt et. al,
8 1 0 F e d. A p p x. 5 5 3, 2 0 2 0 W L 3 4 2 8 8 5 6 (J u n e 2 3, 2 0 2 0 ) .......... p assi m
Sil v er m a n v. G a g n o n ,
2 0 2 0 W L 1 5 0 5 7 1 1 ( N. D. C al. M ar. 3 0, 2 0 2 0) ................................. 1 3
S mit h v. A u b u c h o n ,
2 0 2 0 W L 1 5 3 1 9 4 7 ( E. D. C al. M ar. 3 1, 2 0 2 0) .................................. 1 3
St at e of S o ut h D a k ot a v. Br o w n ,
2 0 C al. 3 d 7 6 5 , 1 4 4 C al. R ptr. 7 5 8, 5 7 6 P. 2 d 4 7 3 ( 1 9 7 8) ........... 1 1 -1 2
iv

10a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 6 of 2 7

T af o y a v. Cit y of H a nf or d ,
2 0 2 0 W L 3 5 3 2 2 7 ( E. D. C al. J a n 2 1, 2 0 2 0) ...................................... 1 3
Tr o p e v. K atz ,
1 1 C al. 4t h 2 7 4, 4 5 C al. R ptr. 2 d 2 4 1, 9 0 2 P. 2 d 2 5 9 ( 1 9 9 5) .................. 8
W all a c e v. K at o
5 4 9 U. S. 3 8 4 ( 2 00 7 ) ............................................................................ 6
F e d e r al St at ut es
4 2 U. S. C. § 1 9 8 3 .......................................................................... 1, 3, 5, 7
F e d e r al R ul es
Cir c uit R ul e 3 6 - 1 ...................................................................................... 6
Cir c uit R ul e 3 6 - 2 .............................................................................. 1, 4 , 6
Cir c uit R ul e 3 6 - 3 ...................................................................................... 7

C alif o r ni a St at ut es
C alif or ni a Ci v. Pr o c. C o d e § 3 5 2 ................................................. 5, 9, 1 0
C alif or ni a Ci v. Pr o c. C o d e § 3 5 2. 1 .................. 1, 2, 3, 5 , 8, 9, 1 0, 1 1, 1 3
C alif or ni a P e n al C o d e § 1 7 .................................................................... 1 1
C alif or ni a P e n al C o d e § 4 1 5.................................................................. 1 1

v

11a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 7 of 2 7

Ot h e r A ut h o riti es
B. K a v a n a u g h, Fi xi n g St at ut or y I nt er pr et ati o n,
1 2 9 H ar v. L. R e v. 2 1 1 8 ( 20 1 6 ) ......................................................... 1 1

vi

12a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 8 of 2 7

F e d. R . A p p. P. 3 5 St at e m e nt
If n ot c orr e ct e d t h e u n p u blis h e d m e m or a n d u m dis p ositi o n t h e p a n el iss u e d
i n t his c as e, S h a w v. S a cr a m e nt o C o u nt y S h eriff’s D e pt. , 8 1 0 F e d. A p p x. 5 5 3, 2 0 2 0
W L 3 4 2 8 8 5 6 (J u n e 2 3, 2 0 2 0) , will c o nti n u e t o wr e a k h a v o c o n t h e distri ct c o urts
a n d liti g a nts i n ci vil ri g hts c as es i n t h e St at e of C alif or ni a f or y e ars t o c o m e .
T his c o urt i n Elli ott v. Cit y of U ni o n Cit y, 2 5 F. 3 d 8 0 0 ( 9t h Cir. 1 9 9 4 ),
u n a ni m o usl y h el d i n an o pi ni o n b y J u d g e R ei n h ar dt t h at t h e t olli n g p eri o d pr o vi d e d
i n C alif or ni a C o d e of Ci vil Pr o c e d ur e ( “ C C P ”) s e cti o n 3 5 2. 1 t olls t h e li mit ati o ns
p eri o d of a cl ai m w hil e a p ers o n is a n arr est e e or a pr etri al d et ai n e e i n c o u nt y j ail .
I d. at 8 0 2 n. 4 a n d 8 0 3 ( “[ P]r e-tri al d et ai n e es cl e arl y ar e ‘i m pris o n e d’ wit hi n t h e
m e a ni n g of t h e C alif or ni a st at ut e . . . . ” ; “[ T] h e st at ut e of li mit ati o ns a p pli c a bl e t o
Elli ott’s § 1 9 8 3 a cti o n w as t oll e d c o m m e n ci n g at t h e ti m e of his arr est a n d
c o nti n ui n g t hr o u g h his c ust o d y. ”) . B ut i n vi ol ati o n of Cir c uit R ul e 3 6 - 2, a n d i n
c o nfli ct wit h H art v M as sa n ari , 2 6 6 F. 3 d 1 1 5 5 ( 9t h Cir. 2 0 0 1), th e p a n el c ast
Elli ott asi d e , h ol di n g i n t h e u n p u blis h e d m e m or a n d u m dis p ositi o n :
“ U n d er t h e C alif or ni a C o urt of A p p e al’s d e cisi o n i n A usti n v. M e di cis –
w hi c h w e ar e ‘ o bli g at e d t o f oll o w’ i n t h e a bs e n c e of e vi d e n c e t h at t h e
C alif or ni a S u pr e m e C o urt w o ul d r ul e t o t h e c o ntr ar y, R y m a n v. S e ars,
R o b u c k & C o., 5 0 5 F. 3 d 9 9 3, 9 9 5 ( 9t h Cir. 2 0 0 7) (i nt er n al q u ot ati o n m ar ks
o mitt e d) – t h e p hr as e ‘i m pris o n e d o n a cri mi n al c h ar g e’ m e a ns ‘s er vi n g a
t er m of i m pris o n m e nt i n t h e st at e pris o n.’ 2 1 C al. A p p. 5t h 5 7 7, 2 3 0 C al.
R ptr. 3 d 5 2 8, 5 4 2 ( 2 0 1 8), r e v. d e ni e d (J u n e 1 3, 2 0 1 8). ”

13a

1

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 9 of 2 7

S h a w, 8 1 0 F e d. A p p x. at 5 5 4. T h e p a n el di d n ot e v e n s o m u c h as m e nti o n Elli ott , a
pr e c e d e nti al o pi ni o n of t his c o urt, w hi c h w as cit e d b y t h e A p p ell a nt i n t h e distri ct
c o urt a n d i n t h e bri efs fil e d i n t h is c o urt.
T h us, e n b a n c r e vi e w is n e c ess ar y t o s e c ur e or m ai nt ai n u nif or mit y of t h e
c o urt’s d e cisi o ns b e c a us e t h e p a n el i m pli citl y o v err ul e d Elli ott , w hi c h “ m ust b e
f oll o w e d u nl ess a n d u ntil o v err ul e d b y a b o d y c o m p et e nt t o d o s o. ” H art , 2 6 6 F. 3 d
at 1 1 7 0; se e F e d. R . A p p. P. 3 5( a).
E n b a n c r e vi e w is als o n e c ess ar y b e c a us e t his c as e i n v ol v es a q u esti o n of
e x c e pti o n al i m p ort a n c e . Si n c e r e vi e w w as d e ni e d i n A usti n v. M e di cis, 2 1
C al. A p p. 5t h 5 7 7 ( 2 0 1 8), o n J u n e 1 3, 2 0 1 8 , 3 2 distri ct c o urt c as es h a v e cit e d
A usti n , r es ulti n g i n a c h a oti c l a n ds c a p e of c o nfli cti n g o pi ni o ns. I n 9 c as es
(i n cl u di n g t his c as e) t h e distri ct c o urts h a v e a p pli e d A usti n , b ut i n o nl y t w o of
t h os e c as es is Elli ott m e nti o n e d. I n 5 c as es t h e distri ct c o urts h a v e d e cli n e d t o
f oll o w A usti n a n d h a v e i nst e a d c orr e ctl y f oll o w e d Elli ott. I n 1 3 ot h er c as es t h e
distri ct c o urts h a v e cit e d A usti n wit h a p pr o v al i n cir c u mst a n c es w h er e t h e
a p pli c ati o n of s e cti o n 3 5 2. 1 t olli n g w as n ot dis p ositi v e. I n t h e m aj orit y of t h es e
c as es t h e pl ai ntiffs ar e pr o s e liti g a nts wit h o ut c o u ns el.
Fi n all y, t h e p a n el’s d e cisi o n is e x c e pti o n all y i n e q uit a bl e. A usti n di d n ot e v e n
e xist w h e n Pl ai ntiff -A p p ell a nt S h e e n a S h a w ( “ A p p ell a nt ”) w as arr est e d or w h e n
s h e fil e d h er c o m pl ai nt. I n f a ct, A usti n di d n ot e v e n e xist w h e n t h e D ef e n d a nts
14a

2

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 0 of 2 7

fil e d t h e m oti o n t o dis miss. A usti n di d n ot e xist u ntil 9 m o nt hs aft er t h e D ef e n d a nts
fil e d t h e m oti o n t o dis miss .
B ac k gr o u n d
D ef e n d a nt S a cr a m e nt o C o u nt y S h eriff’s D e p art m e nt d e p uti es d es c e n d e d o n
a n d e nt er e d S h e e n a S h a w’s h o m e b y br e a ki n g d o w n t h e fr o nt d o or o n A pril 5,
2 0 1 4 . T h e D ef e n d a nts us e d e x c essi v e f or c e i n arr esti n g h er wit h o ut pr o b a bl e c a us e
a n d im pris o n e d h er i n c o u nt y j ail. S h e w as r el e as e d t h e n e xt d a y , A pril 6, 2 0 1 4.
T w o y e ars aft er h er r el e as e, o n A pril 6, 2 0 1 6, A p p ell a nt fil e d a h a n d writt e n
c o m pl ai nt a g ai nst D ef e n d a nts -A p p ell e es S a cr a m e nt o C o u nt y S h e riff’s D e p art m e nt
a n d i n di vi d u al d ef e n d a nts ( “ D ef e n d a nts ”) u n d er 4 2 U. S. C. § 1 9 8 3 i n t h e U nit e d
St at es Distri ct C o urt f or t h e E ast er n Distri ct of C alif or ni a. Aft er c o u ns el w as
a p p oi nt e d t h e First A m e n d e d C o m pl ai nt w as fil e d a n d t h e D ef e n d a nts fil e d a
m oti o n t o dis miss o n J u n e 2 3, 2 0 1 7 , ar g ui n g, i nt er ali a , t h at t h e e ntir e a cti o n w as
ti m e-b arr e d. A p p ell a nt fil e d a ti m el y r es p o ns e t o t h e m oti o n t o dis miss, ass erti n g
t h at t h e li mit ati o ns p eri o d w as t oll e d f or o n e d a y u n d er § 3 5 2. 1 a n d Elli ott. T h e
D ef e n d a n ts fil e d a r e pl y. Th e distri ct c o urt v a c at e d t h e h e ari n g , s et f or A u g ust 1 0,
2 0 1 7. Aft er A p p ell a nt c o m m e n c e d dis c o v er y t h e D ef e n d a nts s u c c essf ull y m o v e d
t o st a y dis c o v er y. O n O ct o b er 2 5, 2 0 1 8, m or e t h a n 1 4 m o nt hs aft er t h e h e ari n g d at e
o n t h e m oti o n t o dis miss , t h e distri ct c o urt iss u e d its Or d er gr a nti n g t h e

15a

3

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 1 of 2 7

D ef e n d a nts’ m oti o n t o dis miss a n d dis missi n g t h e c as e i n its e ntir et y. A p p ell a nt
a p p e al e d.
O n F e br u ar y 4, 2 0 2 0, w hil e t h e c as e w as b ei n g c o nsi d er e d f or or al ar g u m e nt,
A p p ell a nt fil e d a m oti o n f or l e a v e t o fil e a s u p pl e m e nt al o p e ni n g bri ef a d dr essi n g
t h e r etr o a cti vit y of A usti n . D ef e n d a nts fil e d a n o p p ositi o n a n d A p p ell a nt fil e d a
r e pl y. O n F e br u ar y 2 6, 2 0 2 0, t h e c o urt gr a nt e d t h e m oti o n a n d fil e d A p p ell a nt’s
S u p pl e m e nt al O p e ni n g Bri ef. O n M ar c h 1 8, 2 0 2 0, D ef e n d a nts fil e d a S u p pl e m e nt al
A ns w eri n g Bri ef, a n d o n M ar c h 3 1, 2 0 2 0, A p p ell a nt fil e d a S u p pl e m e nt al R e p l y
Bri ef . T h e c as e w as ar g u e d a n d s u b mitt e d o n M a y 1 1, 2 0 2 0. I n a n u n p u blis h e d
m e m or a n d u m dis p ositi o n t h e p a n el affir m e d i n p art a n d r e v ers e d i n p art . T h e p a n el
affir m e d t h e dis miss al of all c a us es of a cti o n ot h er t h a n A p p ell a nt’s cl ai m f or f als e
arr est, w hi c h “ di d n ot a c cr u e u ntil . . . A pril 6, 2 0 1 4. ” 8 1 0 F e d. A p p x. at 5 5 4.
A r g u m e nt
A.

T h e p a n el’s u n p u blis h e d m e m o r a n d u m dis p ositi o n c o nfli cts wit h Elli ott ,
a p r e c e d e nti al o pi ni o n , a n d vi ol at es Ci r c uit R ul e 3 6 - 2
1.

Elli ott v. Cit y of U ni o n Cit y is t h e l a w i n t his Ci r c uit

Elli ott v. Cit y of U ni o n Cit y, 2 5 F. 3 d 8 0 0 ( 9t h Cir. 1 9 9 4) is t h e l a w i n t his
Cir c uit. T h is c o urt h el d i n Elli ott t h at t olli n g is a v ail a bl e t o pl ai ntiffs h el d i n b ot h
c o u nt y j ails a n d st at e pris o ns b e c a us e t h er e is n o pr a cti c al disti n cti o n b et w e e n t h e
t w o f or ms of c o nfi n e m e nt. 2 5 F. 3 d at 8 0 3. I n Elli ott , t h e pl ai ntiff w as arr est e d,
c h ar g e d, a n d h el d i n c o nti n u o us pr etri al c ust o d y i n t h e c o u nt y j ail u ntil h e w as
16a

4

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 2 of 2 7

c o n vi ct e d a n d s e nt t o pris o n. I d. at 8 0 1. Elli ott fil e d a § 1 9 8 3 a cti o n i n f e d er al
distri ct c o urt all e gi n g t h at t h e d ef e n d a nt p oli c e offi c ers us e d e x c essi v e f or c e d uri n g
his arr est. I d. T h is c o urt c o nsi d er e d C C P s e cti o n 3 5 2 , t he pr e d e c ess or t o s e cti o n
3 5 2. 1 , a n d h el d t h at “ a ct u al, u ni nt err u pt e d i n c ar c er ati o n is t h e t o u c hst o n e f or
ass essi n g t olli n g ” b e c a us e , i nt er ali a, “[ a] p ers o n h el d i n p oli c e c ust o d y pri or t o
arr ai g n m e nt is f a c e d wit h t h e s a m e li mit ati o ns as s o m e o n e i n c ust o d y aft er
arr ai g n m e nt. ” I d. at 8 0 3. T h er ef or e, t his c o urt h el d t h at t h e st at ut e of li mit ati o ns
a p pli c a bl e t o Elli ott’s § 1 9 8 3 a cti o n “ w as t oll e d c o m m e n ci n g at t h e ti m e of his
arr est a n d c o nti n ui n g t hr o u g h his c ust o d y. ” I d.
Ni nt h Cir c uit c as el a w is bi n di n g a ut h orit y t h at “ m ust b e f oll o w e d u nl ess a n d
u ntil o v err ul e d b y a b o d y c o m p et e nt t o d o s o. ” H art , 2 6 6 F. 3 d at 1 1 7 0. Alt h o u g h
Elli ott a n al y z e d C C P s e cti o n 3 5 2, t h e pr e d e c ess or t o s e cti o n 3 5 2. 1, t h e o nl y
diff er e n c e b et w e e n t h e pri or a n d c urr e nt v ersi o ns of t h e st at ut e is t h e l e n gt h of t h e
t olli n g p eri o d, w hi c h d o es n ot aff e ct Elli ott ’s r e as o ni n g. T his c o urt h as m a d e cl e ar
t h at “[ o] n c e a p a n el r es ol v es a n iss u e i n a pr e c e d e nti al o pi ni o n, t h e m att er is
d e e m e d r es ol v e d, u nl ess o v err ul e d b y t h e c o urt its elf sitti n g e n b a n c, or b y t h e
S u pr e m e C o urt. ” H art , 2 6 6 F. 3 d at 1 1 7 1.
Elli ott e x pl ai n e d w h y “ c h ar g e ” r ef ers t o pr etri al d et e nti o n:
Alt h o u g h t h e w or ds “i m pris o n e d ” mi g ht a p p e ar t o r ef er t o a n a ct u al pris o n,
t his r e a di n g of t h e st at ut e w o ul d m a k e it s elf-c o ntr a di ct or y , si n c e it r ef ers t o
b ei n g h el d “ o n a cri mi n al c h ar g e, ” i. e., pri or t o c o n vi cti o n. It is t h e s e c o n d
p hr as e, “i n e x e c uti o n u n d er s e nt e n c e of a cri mi n al c o urt, ” t h at c o v ers p ost 17a

5

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 3 of 2 7

c o n vi cti o n i n c ar c er ati o n. i. e., c o nfi n e m e nt i n a n a ct u al pris o n. S e e Mit c h ell
v. Gr e e n o u g h, 1 0 0 F. 2 d 1 8 4, 1 8 7 ( 9t h Cir. 1 9 3 8) ( “t h e p hr as e ‘i m pris o n m e nt
o n a cri mi n al c h ar g e’ r ef ers t o o n e w h o is . . . n ot y et c o n vi ct e d ”), c ert.
d e ni e d , 3 0 6 U. S. 6 5 9, 8 3 L. E d. 1 0 5 6, 5 9 S. Ct. 7 8 8 ( 1 9 3 9).
2 5 F. 3 d at 8 0 2 n. 2 ; s e e als o W all a c e v. K at o, 5 4 9 U. S. 3 8 4 ( 2 0 0 7) ( d efi ni n g
i m pris o n m e nt b e y o n d i m pris o n m e nt i n a pris o n).
T h us, Elli ott is t h e l a w a n d e n b a n c r e vi e w is n e c ess ar y t o s e c ur e a n d
m ai nt ai n u nif or mit y i n t h e l a w i n t his Cir c uit.
2.

T h e p a n el dis r u pt e d t h e u n if o r mit y of t his c o u rt’s d e cisi o ns b y
vi ol at i n g Ci r c uit R ul e 3 6 - 2

Cir c uit R ul e 3 6 -1 d efi n es o pi ni o ns, m e m or a n d a a n d or d ers. Cir c uit R ul e 3 6 2 st at es t h at a writt e n, r e as o n e d dis p ositi o n “s h all b e d esi g n at e d as a n O PI NI O N if
it:
( a)

Est a blis h es, alt ers, m o difi es or cl arifi es a r ul e of f e d er al l a w, or

( b)

C alls att e nti o n t o a r ul e of l a w t h at a p p e ars t o h a v e b e e n g e n er all y
o v erl o o k e d, or

( c)

Criti ci z es e xisti n g l a w, or

( d)

I n v ol v es a l e g al or f a ct u al iss u e of u ni q u e i nt er est or s u bst a nti al p u bli c
i m p ort a n c e, or

( e)

Is a dis p ositi o n of a c as e i n w hi c h t h er e is a p u blis h e d o pi ni o n b y a
l o w er c o urt or a d mi nistr ati v e a g e n c y, u nl ess t h e p a n el d et er mi n es t h at
p u bli c ati o n is u n n e c ess ar y f or cl arif yi n g t h e p a n el’s dis p ositi o n of t h e
c as e, o r

(f)

Is a dis p ositi o n of a c as e f oll o wi n g a r e v ers al or r e m a n d b y t h e U nit e d
St at es S u pr e m e C o urt, or
18a

6

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 4 of 2 7

( g)

Is a c c o m p a ni e d b y a s e p ar at e c o n c urri n g or diss e nti n g e x pr essi o n, a n d
t h e a ut h or of s u c h s e p ar at e e x pr essi o n r e q u ests p u bli c ati o n of t h e
dis p ositi o n of t h e C o urt a n d t h e s e p ar at e e x pr essi o n.

T h e p a n el iss u e d t h e u n p u blis h e d m e m or a n d u m o pi ni o n i n t his c as e d es pit e
t h e f a ct t h at it:
•

A lt ers a n d m o difi es a r ul e of f e d er al l a w b y f aili n g t o f oll o w Elli ott;

•

C riti ci z es e xisti n g l a w b y f aili n g t o f oll o w Elli ott;

•

In v ol v es a l e g al or f a ct u al iss u e of u ni q u e i nt er est or s u bst a nti al p u bli c
i m p ort a n c e b e c a us e it i n v ol v es t h e a c c ess of p ers o ns w h o ar e
i n c ar c er at e d i n j ail a n d w h o h a v e li mit e d a bilit y t o i n v esti g at e t h eir
cl ai ms, t o c o nt a c t l a w y ers a n d t o a v ail t h e ms el v es of t h e pr ot e cti o ns
aff or d e d b y 4 2 U. S. C. § 1 9 8 3; a n d

•

Is a dis p ositi o n of a c as e i n w hi c h t h er e is a p u blis h e d o pi ni o n b y a
l o w er c o urt.

U n a bl e t o ass ail t h e s o u n d r e as o ni n g of Elli ott , th e p a n el f ail e d t o m e nti o n
Elli ott a n d f ail e d t o p u blis h its dis p ositi o n. B ut t h e p a n el f ail e d t o f oll o w Elli ott . A
Ni nt h Cir c uit p a n el s h o ul d n ot b e p er mitt e d t o c ast asi d e a pr e c e d e nti al o pi ni o n b y
i g n ori n g t h e l a w a n d fili n g a n u n p u blis h e d m e m or a n d u m dis p ositi o n w hi c h is “ n ot
pr e c e d e nt. ” Cir c uit R ul e 3 6 - 3. T h e p a n el’s u n p u blis h e d m e m or a n d u m dis p ositi o n
h as alr e a d y b e e n cit e d as s u p p ort f or A usti n i n a distri ct c o urt c as e, b ut t h e distri ct
c o urt c orr e ctl y f oll o w e d Elli ot t. S e e R uiz v. A h er n , N o. 2 0 -c v -0 1 0 8 9 - DM R, 2 0 2 0
W L 4 0 0 1 4 6 5 ( N. D. C al. J ul. 1 5, 2 0 2 0) .

19a

7

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 5 of 2 7

E n b a n c r e vi e w is n e c ess ar y t o s e c ur e a n d m ai nt ai n t h e u nif or mit y of t his
c o urt’s d e cisi o ns a n d t o p ut a n e n d t o att e m pts t o u n d er mi n e t h e l a w i n
u n p u blis h e d m e m or a n d u m dis p ositi o ns .
B.

T h e C alif o r ni a S u p r e m e C o u rt w o ul d n ot a d o pt t h e r e as o ni n g of A usti n
v. M e di cis, 2 1 C al. A p p. 5t h 5 7 7 ( 2 0 1 8)
T h e r e is c o n vi n ci n g e vi d e n c e t h at t h e C alif or ni a S u pr e m e C o urt w o ul d n ot

a d o pt t h e r e as o ni n g of A usti n v. M e di cis . T h at t h e C alif or ni a S u pr e m e C o urt
d e ni e d r e vi e w of A usti n d o es n ot i n a n y w a y s u p p ort A usti n. Tr o p e v. K atz, 1 1
C al. 4t h 2 7 4, 4 5 C al. R ptr. 2 d 2 4 1, 9 0 2 P. 2 d 2 5 9, 2 6 8 n. 1 ( 1 9 9 5) (r ef us al t o gr a nt a
h e ari n g i s “t o b e gi v e n n o w ei g ht i ns of ar as it mi g ht b e d e e m e d t h at w e h a v e
a c q ui es c e d i n t h e l a w as e n u n ci at e d i n a p u blis h e d o pi ni o n of a C o urt of A p p e al . .
. . ”).
1.

A usti n is n ot t h e o nl y C alif o r ni a a p p ell at e c o u rt d e cisi o n t h at h as
a d d r ess e d s e cti o n 3 5 2. 1

T h e C alif or ni a S u pr e m e C o urt h as n ot a d dr ess e d t h e pr e cis e 3 5 2. 1 iss u e
pr es e nt e d i n t his c as e a n d i n t h e n u m er o us ot h er c as es i n t h e distri ct c o urts. H a d
Elli ott n ot r es ol v e d t h e iss u e, N i nt h Cir c uit pr e c e d e nt w o ul d r e q uir e c o urts t o
f oll o w t h e d e cisi o ns of t h e i nt er m e di at e a p p ell at e c o urt o f t h e st at e “ u nl ess t h er e is
c o n vi n ci n g e vi d e n c e t h at t h e hi g h est c o urt of t h e st at e w o ul d d e ci d e diff er e ntl y. ”
Bri c e n o v. S cri b n er, 5 5 5 F. 3 d 1 0 6 9, 1 0 8 0 ( 9t h Cir. 2 0 0 9).
E v e n if t his c o urt w er e t o u n d ert a k e t his a n al ysis, A usti n is n ot t h e o nl y
20a

8

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 6 of 2 7

C alif or ni a a p p ell at e c o urt t h at h as a d dr ess e d t h e iss u e. A n ot h er C alif or ni a a p p ell at e
c o urt i nt er pr et e d s e cti o n 3 5 2 t o a p pl y t o a pris o n er i n a f e d er al h alf w a y h o us e,
w hi c h c o ntr a di cts A usti n ’s c o n cl usi o n t h at s e cti o n 3 5 2. 1 a p pli es o nl y t o st at e
pris o n ers. S e e Bl e dst ei n v. S u p eri or C o urt , 1 6 2 C al. A p p. 3 d 1 52, 1 6 9 ( 1 9 8 4).
Bl e dst ei n d et er mi n e d t h at “ all o wi n g t olli n g w hil e pris o n ers ar e i n h alf w a y h o us es
is a pt t o h a v e o nl y a mi ni m al i m p a ct o n t h e v al u es st at ut es of li mit ati o ns ar e
e x p e ct e d t o s er v e ” b e c a us e “ c o n c er ns a b o ut f a d e d m e m ori es, st al e e vi d e n c e,
dis c o mfit e d d ef e n d a nts . . . s u bsi d e w h e n w e c o nsi d er t h e r el ati v el y s h ort d ur ati o n
of t h e a v er a g e st a y i n h alf w a y h o us es. ” I d. A usti n d o es n ot cit e Bl e dst ei n or
r e c o n cil e it wit h its c o n cl usi o n t h at t h e s u c c ess or s e cti o n 3 5 2. 1 a p pli es s ol el y t o
st at e pris o n ers .
T h er ef or e, t h e st at e a p p ell at e c o urt a ut h orit y o n t his q u esti o n is n ot s ettl e d
a n d t h er e is n o i n di c ati o n t h at t h e C alif or ni a S u pr e m e C o urt w o ul d f oll o w A usti n
i nst e a d of Bl e dst ei n .
2.

A usti n mis c o nst r u e d t h e l e gisl ati v e hist o r y of se cti o n 3 5 2. 1

A usti n b as e d its a n al ysis o n t h e l e gisl ati v e hist or y of s e cti o n 3 5 2. 1, w hi c h
f o c us e d o n st at e pris o n ers. S e e A usti n , 2 1 C al. A p p. 5t h at 5 9 6 -9 7. H o w e v er, it d o es
n ot f oll o w t h at t h e l e gisl at ur e t h er ef or e i nt e n d e d s e cti o n 3 5 2. 1 t o a p pl y o nl y t o
cl ai ms br o u g ht b y i n di vi d u als s e nt e n c e d t o st at e pris o n a n d n ot t o cl ai ms br o u g ht
b y p ers o ns in c ar c er at e d i n c o u nt y j ail. S e cti o n 3 5 2 w as a m e n d e d s ol el y t o a d d a
21a

9

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 7 of 2 7

t w o-y e ar c a p t o t h e t olli n g m e c h a nis m i n or d er t o a d dr ess t h e l ar g e i n cr e as e of ci vil
l a ws uits b ei n g fil e d b y pris o n i n m at es. S e e St ats. 1 9 9 4, c h. 1 0 8 3 § 1 ( “ Si n c e 1 9 8 8,
t h e n u m b er of ci vil l a ws uits file d a g ai nst t h e st at e b y i n m at es i n c ar c er at e d wit h t h e
D e p art m e nt of C orr e cti o ns h as o ut p a c e d t h e i n cr e as e i n C alif or ni a’s pris o n
p o p ul ati o n. ”). T h e st at ut or y a m e n d m e nt e m b o di e d i n s e cti o n 3 5 2. 1 di d n ot m a k e
a n y c h a n g es t o t h e d efi niti o n of i n di vi d u als w h o w er e e ntitl e d t o t olli n g. It is
t h er ef or e n ot s ur prisi n g t h at t h e l e gisl ati v e hist or y of s e cti o n 3 5 2. 1 f o c us e d o n t h e
c o n c er n a d dr ess e d b y t h e s p e cifi c st at ut or y a m e n d m e nt; n a m el y, c a p pi n g of t h e
t olli n g p eri o d. T h us, t h e l e gisl ati v e hist or y n ot es t hat s o m e of t h e l a ws uits t h at h a d
b e e n t oll e d p urs u a nt t o s e cti o n 3 5 2 “ c o n c er n[ e d] e v e nts 1 0 t o 1 5 y e ars i n t h e p ast, ”
w hi c h bill pr o p o n e nts ar g u e d w er e “ v er y diffi c ult t o d ef e n d si n c e wit n ess es a n d
e vi d e n c e m a y h a v e dis a p p e ar e d a n d m e m ori es m a y f a d e. ” S e n. Fl o or A n al ysis,
S e n. Bill N o. 1 4 4 5 ( 1 9 9 3 -1 9 9 4 R e g. S ess.) A u g. 9, 1 9 9 4. T h e l a c k of l e gisl ati v e
c o m m e nt a b o ut i n di vi d u als h el d i n c o u nt y j ail mi g ht w ell r efl e ct t h e a bs e n c e of
pr olifi c or ol d cl ai ms br o u g ht b y t h at d e m o gr a p hi c. T h er ef or e, t h e l e gisl ati v e
hist or y’s sil e n c e o n i n di vi d u als h el d i n c o u nt y j ails is n ot i n di c ati v e of t h e i nt e nt t o
e x cl u d e t h e m fr o m t h e s c o p e of 3 5 2. 1.
3.

A usti n f o u n d a m bi g uit y w h e r e n o n e e xist e d t o i m p os e a n
u nt e n a bl e c o nst r u cti o n o n s e cti o n 3 5 2. 1 , vi ol ati n g a c a r di n al r ul e
of st at ut o r y c o nst r u cti o n

22a

10

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 8 of 2 7

A usti n dis c ar d e d c o m m o n E n glis h a n d “ f o u n d a m bi g uit y i n t h e w or d
i m pris o n e d.” 2 1 C al. A p p. 5t h at 5 9 1 ( e m p h asis i n ori gi n al). As J usti c e K a v a n a u g h
r e c e ntl y wr ot e: “ T h e pr o bl e m of diffi c ult cl arit y v ers us a m bi g uit y d et er mi n ati o ns
w o ul d n ot b e q uit e as si g nifi c a nt if t h e iss u e aff e ct e d c as es o nl y o n t h e m ar gi ns.
B ut t h e o ut c o m e of m a n y c as es t ur ns o n t h e i niti al – a n d oft e n i n c o h er e nt –
di c h ot o m y b et w e e n a m bi g uit y a n d cl arit y. ” B. K a v a n a u g h, Fi xi n g St at ut or y
I nt er pr etati o n, 1 2 9 H ar v. L. R e v. 2 1 1 8, 2 1 3 9 -4 0 ( 2 0 1 6). Usi n g t h e m a gi c w a n d of
i ps e di xit A usti n c o ntr a di ct e d t h e C alif or ni a P e n al C o d e. P e n al C o d e S e cti o n 4 1 5,
Dist ur bi n g t h e p e a c e, pr o vi d es, i n p art: “ A n y of t h e f oll o wi n g p ers o ns s h all b e
p u nis h e d b y i m pris o n m e n t i n t h e c o u nt y j ail f or a p eri o d of n ot m or e t h a n 9 0 d a ys,
a fi n e of n ot m or e t h a n f o ur h u n dr e d d oll ars ( $ 4 0 0), or b ot h s u c h i m pris o n m e nt a n d
fi n e . . . . ”; s e e als o P e n al C o d e § 1 7 ( cri m es p u nis h a bl e, i n t h e dis cr eti o n of t h e
c o urt, eit h er “ b y i m pris o n m e nt i n t h e st at e pris o n or i m pris o n m e nt i n a c o u nt y j ail .
. . . ”).
T h us A usti n i nt er pr et e d “i m pris o n e d o n a cri mi n al c h ar g e ” t o h a v e t h e s a m e
m e a ni n g as t h e s e c o n d cl a us e i n s e cti o n 3 5 2. 1, w hi c h a p pli es t o i n di vi d u als w h o
ar e “i m pris o n e d . . . i n e x e c uti o n u n d er t h e s e nt e n c e of a cri mi n al c o urt. ” A usti n’s
i nt er pr et ati o n is u n p ers u asiv e b e c a us e i t is a “ c ar di n al r ul e of st at ut or y
i nt er pr et ati o n t h at n o pr o visi o n s h o ul d b e c o nstr u e d t o b e e ntir el y r e d u n d a nt. ”
K u n g ys v. U nit e d St at es, 4 8 5 U. S. 7 5 9, 7 7 8 ( 1 9 8 8); s e e als o St at e of S o ut h D a k ot a
23a

11

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 1 9 of 2 7

v. Br o w n , 2 0 C al. 3 d 7 6 5, 7 7 6-7 7 ( 1 9 7 8) ( “A c ar di n al r ul e of c o nstr u cti o n is t h at . .
. a c o nstr u cti o n m a ki n g s o m e w or ds s ur pl us a g e is t o b e a v oi d e d.”).
C.

It is of e x c e pti o n al i m p o rt a n c e t o st o p t h e c o nf usi o n a n d c o nfli ct e xisti n g
i n t h e dist ri ct c o u rts i n C alif o r ni a b e c a us e of A usti n , m a d e w o rs e b y t h e
p a n el ’s d e cisi o n
Si n c e J u n e 1 3, 2 0 1 8, w h e n r e vi e w w as d e ni e d b y t h e C alif or ni a S u pr e m e

C o urt i n A usti n , 3 2 distri ct c o urt c as es h a v e cit e d A usti n , a n d th er e h a v e b e e n 1 4
d e cisi o ns citi n g t o A usti n i n 2 0 2 0 al o n e. I n t h e m aj orit y of t h es e c as es t h e pl ai ntiffs
ar e pr o c e e di n g wit h o ut c o u ns el. T h e r es ult is c o nf usi o n a n d u n c ert ai nt y . T h e p a n el
w ors e n e d t h e c o nf usi o n.
I n t h e f oll o wi n g c as es t h e distri ct c o urts h a v e c orr e ctl y f oll o w e d Elli ott a n d
r ej e ct e d A usti n :
1.
2.
3.
4.
5.

R uiz v. A h er n , N o. 2 0 -c v -0 1 0 8 9 - DM R, 2 0 2 0 W L 4 0 0 1 4 6 5 ( N. D. C al.
J ul. 1 5, 2 0 2 0) ;
K a k o ws ki v. C o u nt y of S a cr a m e nt o , N o. 1 9-c v -0 0 6 5 6 KJ N P, 2 0 2 0
W L 1 0 4 6 5 6 4 ( E. D. C al. M ar. 4, 2 0 2 0) ;
J o h ns o n v. C o u nt y of S a nt a Cl ar a , N o. 1 8-c v -0 6 2 6 4, 2 0 2 0 W L
8 7 0 9 3 3 ( N. D. C al. F e b. 2 1, 2 0 2 0);
Mill er v. N aj er a , N o. 1 9-c v -0 1 0 7 7 -A WI -B A M ( P C), 2 0 2 0 W L
7 3 1 1 7 6 ( E. D. C al. F e b. 1 3, 2 0 2 0) ; a n d
B ar os v . R a mir ez, N o. 1 7-c v -0 0 9 4 8 -R ( S H K), 2 0 1 9 W L 3 8 4 9 1 7 1
( C. D. C al. J u n. 5, 2 0 1 9).

H o w e v er, i n t h e f oll o wi n g c as es , i n a d diti o n t o t his c as e, t h e distri ct c o urts
h a v e i n c orr e ctl y f ail e d t o f oll o w t h e l a w as s et f ort h i n Elli ott i n c o nfli ct wit h
s ettl e d Ni nt h Cir c uit l a w:
24a

12

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 0 of 2 7

1.
2.
3.
4.
5.
6.
7.
8.
9.

L u c k ett v. S u b ur y , N o. 2 0-c v - 00 9 3 2 -M M A -J L B, 2 0 2 0 W L 3 4 0 2 2 5 1
( S. D. C al. J u n. 1 8, 2 0 2 0)*;
Fl or es -R a mir ez v. T hr e e U n k n o w n F e d er al T as k F or c e A g e nts , N o.
1 7 -c v - 02 3 6 0 -V B F ( PJ W) , 2 0 2 0 W L 3 0 3 8 1 2 8 ( C. D. C al. A pr. 1 4,
2 0 2 0) *;
S mit h v. A u b u c h o n , N o. 1 4 -c v - 00 7 7 5 -KJ M -D M C - P, 2 0 2 0 W L
1 5 3 1 9 4 7 ( E. D. C al. M ar. 3 1, 2 0 2 0) *;
Sil v er m a n v. G a g n o n , N o. 1 8-c v - 07 6 2 1 B L F ( P R) , 2 0 2 0 W L 1 5 0 5 7 1 1
( N. D. C al. M ar. 3 0, 2 0 2 0);
S e k er k e v. H o o d e n p yl e , N o. 1 9-c v -0 0 0 3 5 -W Q H -J LB , 2 0 2 0 W L
9 1 4 8 8 5 ( S. D. C al. F e b. 2 6, 2 0 2 0) ;
T af o y a v. Cit y of H a nf or d , N o. 1: 2 0 -c v -0 0 0 1 0 -LJ O -S A B , 2 0 2 0 W L
3 5 3 2 2 7 ( E. D. C al. J a n 2 1, 2 0 2 0)*;
Al a niz v. E nt erli n e , N o. 1 8-c v -0 5 7 8 8 -H S G, 2 0 2 0 W L 2 3 0 8 9 3 ( N. D.
C al. J a n. 1 5, 2 0 2 0) ;
B ell v. M a h o n e y , N o. 1 8-c v -0 5 2 8 0 -P A -K E S , 2 0 1 9 W L 6 7 9 2 7 9 3 ( C. D.
C al. A u g. 2 9, 2 0 1 9) *;
S h a w v. S a cr a m e nt o C o u nt y S h eriff's D e p art m e nt , N o. 1 6-c v - 00 7 2 9 T L N -C K D , 3 4 3 F. S u p p. 3 d 9 1 9 ( E. D. C al. O ct. 2 5, 2 0 1 8),

I n fi v e of t h es e r uli n gs t h e distri ct c o urts f ail t o m e nti o n Elli ott. I n 1 3 ot h er
c as es t h e distri ct c o urts cit e t o A usti n b ut s e cti o n 3 5 2. 1 t olli n g is n ot dis p ositi v e
a n d i n o nl y t hr e e of t h es e c as es is Elli ott cit e d . T h e r es ult is c o nf usi o n a n d
u n c ert ai nt y. T h er e is n o c o ns e ns us or a n y w a y t o disti n g uis h t h e f a cts of a c as e t h at
c a n pr o vi d e r eli a bilit y t o liti g a nts o n t h e iss u e of t olli n g u n d er s e cti o n 3 5 2. 1.
E n b a n c r e vi e w of t his c as e is n e c ess ar y t o pr o vi d e cl arit y a n d t o st o p t h e
c o nf usi o n t h at p er m e at es t h e distri ct c o urts i n C alif or ni a as a r es ult of A usti n a n d
t h at t h e p a n el’s u n p u blis h e d m e m or a n d u m dis p ositi o n di d n ot hi n g t o c orr e ct .

25a

13

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 1 of 2 7

C o n cl usi o n
T h e p etiti o n s h o ul d b e gr a nt e d.
D at e: J ul y 2 1 , 2 02 0

R es p e ctf ull y s u b mitt e d,

/ s/ J eff D o mi ni c Pri c e

JE F F D O MI NI C P RI C E
Att or n e y f or Pl ai ntiff -A p p ell a nt

26a

14

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 2 of 2 7

0 7/ 2 4/ 2 0 2 0

27a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 3 of 2 7

I N T H E U NI T E D S T A T E S C O U R T O F A P P E A L S F O R T H E NI N T H CI R C UI T

C A S E N O . 1 8- 1 7 1 8 4
____________
S hee na S ha w ,

Pl ai ntiff - Ap p ell a nt ,
v.

S a cr a m e nt o C o u nt y S h eriff’s D e p art m e nt et al. , D ef e n d a nt s-A p p ell e es ,
____________
C E R TI FI C A T E O F S E R VI C E O F P E TI TI O N F O R P A N E L R E H E A RI N G A N D
R E H E A RI N G E N B A N C

____________

I, J eff D o mi ni c Pri c e, a m e m b er of t h e B ar of t his C o urt, h er e b y c ertif y t h at
o n t his 2 4t h d a y of J ul y, 2 02 0 , o n e c o p y of t h e P etiti o n f or P a n el R e h e ari n g a n d
R e h e ari n g E n B a n c w as s er v e d vi a t h e C M/ E C F s yst e m t o W e n d y M ot o o k a , Ri v er a,
H e witt P a ul, L L P , 1 1 3 4 1 G ol d E x pr ess Dri v e , S uit e 1 6 0, G ol d Ri v er, C alif or ni a
9 5 6 7 0, c o u ns el f or a p p ell e e s h er ei n.
R es p e ctf ull y s u b mitt e d,
/s/ J eff D o mi ni c Pri c e
J eff D o mi ni c Pri c e
C o u ns el f or Pl ai ntiff -A p p ell a nt
2 50 0 Br o a d w a y , S uit e 1 2 5
S a nt a M o ni c a, C alif or ni a 9 0 4 0 4

28a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 4 of 2 7

FI L E D

N O T F O R P U B LI C A TI O N

J U N 23 2020

U NI T E D S T A T E S C O U R T O F A P P E A L S

M O L L Y C. D W Y E R, C L E R K
U. S. C O U R T O F A P P E A L S

F O R T H E NI N T H CI R C UI T
S H E E N A S H A W,

N o.

Pl ai ntiff -A p p ell a nt,
v.
S A C R A M E N T O C O U N T Y S H E RI F F' S
D E P A R T M E N T; et al.,

1 8 -1 7 1 8 4

D. C. N o.
2: 1 6 -c v -0 0 7 2 9 -T L N -C K D
ME M OR A N D U M

*

D ef e n d a nts -A p p ell e es.
A p p e al fr o m t h e U nit e d St at es Distri ct C o urt
f or t h e E ast er n Distri ct of C alif or ni a
Tr o y L. N u nl e y, Distri ct J u d g e, Pr esi di n g
Ar g u e d a n d S u b mitt e d M a y 1 1, 2 0 2 0
S a n Fr a n cis c o, C alif or ni a
B ef or e: R. N E L S O N a n d B R E S S, Cir c uit J u d g es, a n d G WI N,

**

Distri ct J u d g e.

S h e e n a S h a w w as arr est e d b y d e p uti es fr o m t h e S a cr a m e nt o C o u nt y
S h eriff’s D e p art m e nt o n A pril 5, 2 0 1 4, d et ai n e d o v er ni g ht, a n d r el e as e d t h e n e xt
d a y . T w o y e ars a n d o n e d a y aft er t h e arr est, s h e fil e d a c o m pl ai nt u n d er 4 2 U. S. C.

*

T his dis p ositi o n is n ot a p pr o pri at e f or p u bli c ati o n a n d is n ot pr e c e d e nt
e x c e pt as pr o vi d e d b y Ni nt h Cir c uit R ul e 3 6 -3.
**

T h e H o n or a bl e J a m es S. G wi n, U nit e d St at es Distri ct J u d g e f or t h e
N ort h er n Distri ct of O hi o, sitti n g b y d esi g n ati o n.

29a

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 5 of 2 7

§ 1 9 8 3 a g ai nst t h e S h eriff’s D e p art m e nt, as w ell s e v er al d e p uti es, b as e d o n t he
e v e nts s urr o u n di n g t h e arr est. T h e distri ct c o urt gr a nt e d a m oti o n t o dis miss t h e
c o m pl ai nt as ti m e b arr e d , a d e cisi o n w e r e vi e w d e n o v o. Gr e g g v. H a w., D e p’t of
P u b. S af et y , 8 7 0 F. 3 d 8 8 3, 8 8 6 – 8 7 ( 9t h Cir. 2 0 1 7). W e h a v e j uris di cti o n u n d er 2 8
U. S. C. § 1 2 9 1 a n d affir m i n p art a n d r e v ers e i n p art.
1.

1

T h e distri ct c o urt c orr e ctl y h el d t h at t olli n g w as n ot a v ail a bl e u n d er

C alif or ni a C o d e of Ci vil Pr o c e d ur e s e cti o n 3 5 2. 1, w hi c h t olls t h e st at ut e of
li mit ati o ns d uri n g t h e ti m e “ a p ers o n ” is “i m pris o n e d o n a cri mi n al c h ar g e. ” U n d er
t h e C alif or ni a C o urt of A p p e al’s d e cisi o n i n A usti n v. M e di cis — w hi c h w e ar e
“ o bli g at e d t o f oll o w ” i n t h e a bs e n c e of e vi d e n c e t h at t h e C alif or ni a S u pr e m e C o urt
w o ul d r ul e t o t h e c o ntr ar y, R y m a n v. S e ars, R o e b u c k & C o. , 5 0 5 F. 3 d 9 9 3, 9 9 5 ( 9t h
Cir. 2 0 0 7) (i nt er n al q u ot ati o n m ar ks o mitt e d)— th e p hr as e “i m pris o n e d o n a
cri mi n al c h ar g e ” m e a ns “s er vi n g a t er m of i m pris o n m e nt i n t h e st at e pris o n. ” 2 3 0
C al. R ptr. 3 d 5 2 8, 5 4 2 ( Ct. A p p. 2 0 1 8) , r e vi e w d e ni e d (J u n e 1 3, 2 0 1 8). S h a w h as
n ot all e g e d t h at s h e w as s er vi n g a t er m of i m pri s o n m e nt, nor t h at s h e w as d et ai n e d
i n a st at e pris o n. S o t h e distri ct c o urt w as c orr e ct t o h ol d t h at h er o n e-d a y
d et e nti o n i n a c o u nt y j ail di d n ot e ntitl e h er t o t olli n g u n d er C alif or ni a C o d e of
Ci vil Pr o c e d ur e s e cti o n 3 5 2. 1. I d. at 5 4 3 ; s e e als o B d. of R e g e nts o f U ni v. of N. Y.
1

W e d e n y as m o o t S h a w’s M oti o n t o St a y S etti n g C as e f or Or al Ar g u m e nt . T h at
m oti o n w as pr e mis e d u p o n S h a w’s fili n g of a s u p pl e m e nt al o p e ni n g bri ef, w hi c h
s h e di d b ef or e or al ar g u m e nt.

30a

2

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 6 of 2 7

v. T o m a ni o , 4 4 6 U. S. 4 7 8, 4 8 4 ( 1 9 8 0) ( e x pl ai ni n g t h at “ a st at e st at ut e of
li mit ati o ns a n d t h e c o or di n at e t olli n g r ul es ” ar e “ bi n di n g r ul es of l a w ” i n a § 1 9 8 3
c as e) .2
2.

S h a w als o ar g u es s h e is e ntitl e d t o t olli n g of t h e st at ut e of li mit ati o ns

u n d er C alif or ni a G o v er n m e nt C o d e s e cti o n 9 4 5. 3 , w hi c h t olls t h e st at ut e of
li mit ati o ns i n c ert ai n c as es f or t h e p eri o d d uri n g w hi c h “ c h ar g es ar e p e n di n g b ef or e
a s u p eri or c o urt .” B ut s h e di d n ot r ais e t his ar g u m e nt i n h er o p p ositi o n t o t h e
C o u nt y’s m oti o n t o dis miss. I nst e a d, s h e r ais e d it f or t h e first ti m e i n a m oti o n f or
r e c o nsi d er ati o n of a m a gistr at e j u d g e or d er st a yi n g dis c o v er y p e n di n g a r uli n g o n
t h e m oti o n t o dis miss. T h e iss u e w as t h er ef or e w ai v e d, a n d w e d e cli n e t o e x er cis e
o ur dis cr eti o n t o c o nsi d er it f or t h e first ti m e o n a p p e al. S e e J a n es v. W al -M art
St or es I n c. , 2 7 9 F. 3 d 8 8 3, 8 8 8 n. 4 ( 9t h Cir. 2 0 0 2) .
3.

H a vi n g d e ci d e d S h a w is n ot e ntitl e d t o t olli n g , w e n o w d e ci d e

w h et h er h er cl ai ms ar e b arr e d b y t h e t w o-y e ar st at ut e of li mit ati o ns. J o n es v.
Bl a n as , 3 9 3 F. 3 d 9 1 8, 9 2 7 ( 9t h Cir. 2 0 0 4); C al. C o d e Ci v. Pr o c. § 3 3 5. 1. All b ut
o n e of S h a w’s cl ai ms a c cr u e d o n A pril 5, 2 0 1 4, b e c a us e t h at w as t h e d a y s h e k n e w
or h a d “r e as o n t o k n o w of t h e i nj ur y w hi c h is t h e b asis” f or h er cl ai ms. Ki m es v.

2

S h a w ar g u e d i n a s u p pl e m e nt al bri ef t h at t h e M e di cis d e cisi o n s h o ul d n ot b e
a p pli e d r etr o a cti v el y. W e d e cli n e t o c o nsi d er t his ar g u m e nt b e c a us e it w as n ot
r ais e d i n S h a w’s o p e ni n g bri ef. S e e Br o w n v. R a ws o n -N e al Ps y c hi atri c H os p. , 8 4 0
F. 3 d 1 1 4 6, 1 1 4 8 – 4 9 ( 9t h Cir. 2 0 1 6).
31a

3

C a s e: 1 8- 1 7 1 8 4, 0 7/ 2 4/ 2 0 2 0, I D: 1 1 7 6 5 4 8 9, D kt E ntr y: 6 3, P a g e 2 7 of 2 7

St o n e , 8 4 F. 3 d 1 1 2 1, 1 1 2 8 ( 9t h Cir. 1 9 9 6) (i nt er n al q u ot ati o n m ar ks o mitt e d).
T h os e cl ai ms — br o u g ht i n t h e A pril 6 , 2 0 1 6 c o m pl ai nt— w er e t h er ef or e ass ert e d
o n e d a y l at e a n d ar e b arr e d b y t h e t w o -y e ar st at ut e of li mit ati o ns . S h a w’s f als e
arr est cl ai m, h o w e v er, di d n ot a c cr u e u ntil “t h e all e g e d f als e i m pris o n m e nt
e n d[ e d] ” o n A pril 6, 2 0 1 4. W all a c e v. K at o , 5 4 9 U. S. 3 8 4, 3 8 9 ( 2 0 0 7). T h us, t h a t
cl ai m is n ot b arr e d b y t h e t w o-y e ar st at ut e of li mit ati o ns. W e t h er ef or e affir m t h e
distri ct c o urt’s dis miss al of all c a us es of a cti o n ot h er t h a n S h a w’s cl ai m f or f als e
arr est. As t o t h at cl ai m, w e r e v ers e a n d r e m a n d wit h i nstr u cti o ns to c o nsi d e r, i n
t h e first i nst a n c e, w h et h er t h e f als e arr est cl ai m is a d e q u at el y pl e d or b arr e d b y
S h a w’s n ol o c o nt e n d er e pl e a . E a c h p art y will b e ar its o w n c osts.
A F FI R M E D I N P A R T; R E V E R S E D I N P A R T.

32a

4

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 3

Fil e d 1 0/ 2 5/ 1 8

P a g e 1 of 1

U NI T E D S T A T E S DI S T RI C T C O U R T
E A S T E R N DI S T RI C T O F C A LI F O R NI A

J U D G M E N T I N A CI VI L C A S E
S H E E N A S H A W,
C A S E N O: 2: 1 6 − C V − 0 0 7 2 9 − T L N − C K D

v.
S A C R A M E N T O C O U N T Y S H E RI F F' S
D E P A R T M E N T, E T A L.,

X X − − D e cisi o n b y t h e C o u rt. T his a cti o n c a m e t o tri al or h e ari n g b ef or e t h e C o urt. T h e iss u es
h a v e b e e n tri e d or h e ar d a n d a d e cisi o n h as b e e n r e n d er e d.
I T I S O R D E R E D A N D A DJ U D G E D
T H A T J U D G M E N T I S H E R E B Y E N T E R E D I N A C C O R D A N C E WI T H T H E
C O U R T' S O R D E R FI L E D O N 1 0/ 2 5/ 2 0 1 8

M a ri a n n e M at h e rl y
Cl er k of C o urt
E N T E R E D:

O ct o b e r 2 5, 2 0 1 8
b y: /s/

M. Y or k

D e p ut y Cl er k

33a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 1 of 7

U NI T E D S T A T E S DI S T RI C T C O U R T
E A S T E R N DI S T RI C T O F C A LI F O R NI A

N o . 2: 1 6 -c v -0 0 7 2 9 -T L N -C K D

S HEE N A S H A W,
Pl ai ntiff ,

O R DE R

v.
S A C R A M E N T O C O U N T Y S H E RI F F ’S
D E P A R T M E N T , et al .,
D ef e n d a nt s.

T his m att er is b ef or e t h e C o urt p urs u a nt t o D ef e n d a nt S a cr a m e nt o C o u nt y S h e riff’s
D e p art m e nt, S h eriff S c ott J o n es , C o u nt y of S a cr a m e nt o, S gt. M. P ai # 2 0 5 5, D e p ut y St e v e n
F ors yt h # 8 7 4, D e p ut y C oli n M as o n # 4 6 1 , D e p ut y K e n n et h S h elt o n # 1 0 2 1, D e p ut y R ei d H arris
# 2 3 8, D e p ut y S. B arr y # 8 2 8, a n d D e p ut y C. B artils o n # 1 4 7 0’s ( c oll e cti v el y, “ D ef e n d a nts ” )
M oti o n t o Dis miss. ( E C F N o. 3 2 .) Pl ai ntiff S h e e n a S h a w ( “ Pl ai ntiff ”) o p p os es D ef e n d ants’
M oti o n. ( E C F N o. 3 8 .) D ef e n d a nts fil e d a R e pl y. ( E C F N o. 4 1.)
Aft er c ar ef ull y c o nsi d eri n g t h e p arti es’ bri efi n g a n d f or t h e r e as o ns s et f ort h b el o w, t h e
C o urt h er e b y G R A N T S D ef e n d a nts’ M oti o n t o Dis miss. ( E C F N o. 3 2.)
///
///
///

34a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D
I.

F

A CT U AL A N D

P

D o c u m e nt 5 2

R O CE D U R AL

B

Fil e d 1 0/ 2 5/ 1 8

P a g e 2 of 7

A C K G R O U N D

Pl ai nti ff all e g es t h at, o n A pril 5 , 2 0 1 4 , offi c ers of t h e S a cr a m e nt o C o u nt y S h eriff ’s
D e p art m e nt m a d e a w arr a ntl ess e ntr y i nt o h er h o m e a n d us e d e x c essi v e f or c e a g ai nst h er w hil e
arr est i n g h er 1 8 -y e ar -ol d s o n i n h er h o m e. ( E C F N o. 1 5 ¶ ¶ 2 3 – 5 9 .) Pl ai ntiff a ll e g es s h e w as
arr est e d o n A pril 5, 2 0 1 4, a n d t h e n r el e as e d fr o m t h e S a cr a m e nt o C o u nt y J ail t h e f oll o wi n g d a y,
A pril 6 , 2 0 1 4 . ( E C F N o. 1 5 ¶ ¶ 2 3, 8 5 .) O n A pril 6 , 2 0 1 6 , Pl ai ntiff fil e d s uit pr o s e . (S e e E C F
N o . 1 .) T h e C o urt dis miss ed h er s uit wit h l e a v e t o a m e n d , ( E C F N o. 3) , a n d gr a nt e d h er m oti o n
t o a p p oi nt c o u ns el, ( E C F N o. 1 1) . Pl ai ntiff , n o w r e pr es e nt e d b y c o u ns el , fil e d h er First A m e n d e d
C o m pl ai nt , ( E C F N o. 1 5), ass ert i n g 11 cl ai ms f or vi ol ati o ns of h er c o nstit uti o n al ri g hts p urs u a nt
t o 4 2 U.S .C . § 1 9 8 3 ( “ § 1 9 8 3 ”).
D ef e n d a nts m o v e d t o dis miss. ( E C F N o. 3 2 .) D ef e n d a nts ar g u e t h at t e n of Pl ai ntiff’s 1 1
cl ai ms ar e ti m e -b arr e d b e c a us e Pl ai ntiff fil e d h er ori gi n al c o m pl ai nt o n e d a y aft er t h e t w o-y e ar
st at ut e of li mit ati o ns e x pir e d. ( E C F N o. 3 2 -1 at 9 .) D ef e n d a nts alt er n ati v el y ar g u e t h at Pl ai ntiff
f ails t o st at e a cl ai m f or e a c h of h er 1 1 cl ai ms f or ot h er r e as o ns. ( E C F N o. 3 2 -1 .) Pl ai ntiff
o p p os e s D ef e n d a nts’ m oti o n t o dis miss as t o cl ai ms 1 – 1 0 , ar g ui n g t h e li mit ati o ns p eri o d w as
t oll e d u ntil h er A pril 6 , 2 0 1 4 r el e as e fr o m S a cr a m e nt o C o u nt y J ail. ( E C F N o. 3 8 at 5 – 6 .)
Pl ai ntiff d o es n ot o p p os e dis miss al of cl ai m 1 1 f or m ali ci o us pr os e c uti o n. ( E C F N o. 3 8 at 1 .)
Pl ai ntiff t h e n s er v e d dis c o v er y o n D ef e n d a nts , i n cl u di n g a r e q u est f or t h e c o u nt y t o
dis cl os e i nf or m ati o n r el at e d t o a j u v e nil e c o urt arr est w arr a nt f or Pl ai ntiff ’s s o n t h at h as b e e n
s e al e d b y t h e st at e s u p eri or c o urt . ( E C F N o. 4 3 at 2 , 4.) D ef e n d a nts m o v e d t o st a y dis c o v er y
ar g ui n g t h at t h e r e q u ests f or dis c o v er y “ g e n er at e m oti o ns pr a cti c e ” b y “ r aisi n g diffi c ult q u esti o ns
i n v ol vi n g t h e S u pr e m a c y Cl a us e, f e d er alis m, a n d c o mit y ” w hi c h “ m a y b e e ntir el y m o ot e d b y
[D ]ef e n d a nts ’ still p e n di n g m oti o n t o dis miss . ” ( E C F N o. 4 3 at 2 .) Pl ai ntiff o p p os e d o n t h e b asis
t h at D ef e n d a nts’ m oti o n t o dis miss will n ot dis p os e of t h e c as e e ntir el y b e c a us e (i) t h e m oti o n
li k el y will n ot b e gr a nt e d, (ii) if it w er e, Pl ai ntiff w o ul d pr o b a bl y b e gi v e n l e a v e t o a m e n d , a n d
(iii) D ef e n d a nts’ st at ut e of li mit ati o n ar g u m e nt is fri v ol o us. ( E C F N o. 4 3 at 3– 4.)
T h e M a gistr at e J u d g e gr a nt e d D ef e n d a nt ’s m oti o n t o st a y, fi n di n g D ef e n d a nts’ m oti o n t o
dis miss m a y r es ult i n all r e m ai ni n g cl ai ms b ei n g dis miss e d as ti m e -b arr e d a n d is t h er ef or e
35a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 3 of 7

“ p ot e nti all y dis p osi ti v e” of t h e c as e . ( E C F N o. 4 8 at 3 .) Pl ai ntiff r e q u ests r e c o nsi d er ati o n of t h at
or d er . ( E C F N o. 4 9 .) D ef e n d a nts o p p os e. ( E C F N o. 5 0 .) F or r e as o ns s et f ort h b el o w, t h e C o urt
gr a nts D ef e n d a nts’ m oti o n t o dis miss a n d d e ni es as m o ot Pl ai ntiff’s m oti o n t o r e c o nsi d er .
II.

ST

A N D A R D OF

L

A W

A m oti o n t o dis miss f or f ail ur e t o st at e a cl ai m u n d er R ul e 1 2( b)( 6) t ests t h e l e g al
s uffi ci e n c y of a c o m pl ai nt. N a v arr o v. Bl o c k , 2 5 0 F. 3 d 7 2 9, 7 3 2 ( 9t h Cir. 2 0 0 1). F e d er al R ul e of
Ci vil Pr o c e d ur e 8( a) r e q uir es t h at a pl e a di n g c o nt ai n “ a s h ort a n d pl ai n st at e m e nt of t h e cl ai m
s h o wi n g t h at t h e pl e a d er is e ntitl e d t o r eli ef. ” S e e As h cr oft v. I q b al , 5 5 6 U. S. 6 6 2, 6 7 8– 7 9
( 2 0 0 9). U n d er n oti c e pl e a di n g i n f e d er al c o urt, t h e c o m pl ai nt m ust “ gi v e t h e d ef e n d a nt f air n oti c e
of w h at t h e cl ai m . . . is a n d t h e gr o u n ds u p o n w hi c h it r ests. ” B ell Atl a nti c v. T w o m bl y , 5 5 0 U. S.
5 4 4, 5 5 5 ( 2 0 0 7) (i nt er n al q u ot ati o ns o mitt e d). “ T his si m plifi e d n oti c e pl e a di n g st a n d ar d r eli es o n
li b er al dis c o v er y r ul es a n d s u m m ar y j u d g m e nt m oti o ns t o d efi n e dis p ut e d f a cts a n d iss u es a n d t o
dis p os e of u n m erit ori o us cl ai ms. ” S wi er ki e wi cz v. S or e m a N. A. , 5 3 4 U. S. 5 0 6, 5 1 2 ( 2 0 0 2).
O n a m oti o n t o dis miss, t h e f a ct u al all e g ati o ns of t h e c o m pl ai nt m ust b e a c c e pt e d as tr u e.
C r uz v. B et o, 4 0 5 U. S. 3 1 9, 3 2 2 ( 1 9 7 2). A c o urt is b o u n d t o gi v e pl ai ntiff t h e b e n efit of e v er y
r e as o n a bl e i nf er e n c e t o b e dr a w n fr o m t h e “ w ell -pl e a d e d ” all e g ati o ns of t h e c o m pl ai nt. R et ail
Cl er ks I nt ’l Ass’n v. S c h er m er h or n , 3 7 3 U. S. 7 4 6, 7 5 3 n. 6 ( 1 9 6 3). A pl ai ntiff n e e d n ot all e g e
“‘ s p e cifi c f a cts’ b e y o n d t h os e n e c ess ar y t o st at e his cl ai m a n d t h e gr o u n ds s h o wi n g e ntitl e m e nt t o
r eli ef.” T w o m bl y , 5 5 0 U. S. at 5 7 0. “ A cl ai m h as f a ci al pl a usi bilit y w h e n t h e pl ai ntiff pl e a ds
f a ct u al c o nt e nt t h at all o ws t h e c o urt t o dr a w t h e r e as o n a bl e i nf er e n c e t h at t h e d ef e n d a nt is li a bl e
f or t h e mis c o n d u ct all e g e d.” I q b al, 5 5 6 U. S. at 6 7 8 ( citi n g T w o m bl y , 5 5 0 U. S. 5 4 4, 5 5 6 ( 2 0 0 7)).
N e v ert h el ess, a c o urt “ n e e d n ot ass u m e t h e tr ut h of l e g al c o n cl usi o ns c ast i n t h e f or m o f
f a ct u al all e g ati o ns.” U nit e d St at es e x r el. C h u ni e v. Ri n gr os e , 7 8 8 F. 2 d 6 3 8, 6 4 3 n. 2 ( 9t h Cir.
1 9 8 6).

W hil e R ul e 8( a) d o es n ot r e q uir e d et ail e d f a ct u al all e g ati o ns, “ it d e m a n ds m or e t h a n a n

u n a d or n e d, t h e d ef e n d a nt – u nl a wf ull y – h ar m e d – m e a c c us ati o n. ” Iq b al , 5 5 6 U. S. at 6 7 8. A
pl e a di n g is i ns uffi ci e nt if it off ers m er e “ l a b els a n d c o n cl usi o ns” or “ a f or m ul ai c r e cit ati o n of t h e
el e m e nts of a c a us e of a cti o n. ” T w o m bl y , 5 5 0 U. S. at 5 5 5; s e e als o I q b al, 5 5 6 U. S. at 6 7 8
(“ T hr e a d b ar e r e cit als of t h e el e m e nts of a c a us e of a cti o n, s u p p ort e d b y m er e c o n cl us or y
36a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D
st at e m e nts, d o n ot s uffi c e. ” ).

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 4 of 7

M or e o v er, it is i n a p pr o pri at e t o ass u m e t h at t h e pl ai ntiff “ c a n pr o v e

f a cts t h at it h as n ot all e g e d or t h at t h e d ef e n d a nts h a v e vi ol at e d t h e . . . l a ws i n w a ys t h at h a v e n o t
b e e n all e g e d[.] ” Ass o ci at e d G e n. C o ntr a ct ors of C al., I n c. v. C al. St at e C o u n cil of C ar p e nt ers ,
4 5 9 U. S. 5 1 9, 5 2 6 ( 1 9 8 3).
Ulti m at el y, a c o urt m a y n ot dis miss a c o m pl ai nt i n w hi c h t h e pl ai ntiff h as all e g e d “ e n o u g h
f a cts t o st at e a cl ai m t o r eli ef t h at is pl a usi bl e o n its f a c e. ” I q b al, 5 5 6 U. S. at 6 9 7 ( q u oti n g
T w o m bl y , 5 5 0 U. S. at 5 7 0). O nl y w h er e a pl ai ntiff h as f ail e d t o “ n u d g e[] [ his or h er] cl ai ms . . .
a cr oss t h e li n e fr o m c o n c ei v a bl e t o pl a usi bl e[,] ” is t h e c o m pl ai nt pr o p erl y dis miss e d. I d. at 6 8 0 .
W hil e t h e pl a usi bilit y r e q uir e m e nt is n ot a ki n t o a pr o b a bilit y r e q uir e m e nt, it d e m a n ds m or e t h a n
“ a s h e er p ossi bilit y t h at a d ef e n d a nt h as a ct e d u nl a wf ull y. ” I d. at 6 7 8. T his pl a usi bilit y i n q uir y is
“ a c o nt e xt – s p e cifi c t as k t h at r e q uir es t h e r e vi e wi n g c o urt t o dr a w o n its j u di ci al e x p eri e n c e a n d
c o m m o n s e ns e. ” I d. at 6 7 9.
If a c o m pl ai nt f ails t o st at e a pl a usi bl e cl ai m, “‘ [ a] distri ct c o urt s h o ul d gr a nt l e a v e t o
a m e n d e v e n if n o r e q u est t o a m e n d t h e pl e a di n g w as m a d e, u nl ess it d et er mi n es t h at t h e pl e a di n g
c o ul d n ot p ossi bl y b e c ur e d b y t h e all e g ati o n of ot h er f a cts. ’ ” L o p ez v. S mit h , 2 0 3 F. 3 d 1 1 2 2,
1 1 3 0 ( 9t h Cir. 2 0 0 0) ( e n b a n c) ( q u oti n g D o e v. U nit e d St at es , 5 8 F. 3 d 4 8 4, 4 9 7 ( 9t h Cir. 1 9 9 5));
s e e als o G ar d n er v. M ari n o , 5 6 3 F. 3 d 9 8 1, 9 9 0 ( 9t h Cir. 2 0 0 9) (fi n di n g n o a b us e of dis cr eti o n i n
d e n yi n g l e a v e t o a m e n d w h e n a m e n d m e nt w o ul d b e f util e). Alt h o u g h a distri ct c o urt s h o ul d
fr e el y gi v e l e a v e t o a m e n d w h e n j usti c e s o r e q uir es u n d er R ul e 1 5( a)( 2), “ t h e c o urt’s dis cr eti on t o
d e n y s u c h l e a v e is ‘p arti c ul arl y br o a d ’ w h er e t h e pl ai ntiff h as pr e vi o usl y a m e n d e d its
c o m pl ai nt[.] ” E c ol o gi c al Ri g hts F o u n d. v. P a c. G as & El e c. C o. , 7 13 F. 3 d 5 0 2, 5 2 0 ( 9t h Cir.
2 0 1 3) ( q u oti n g Mill er v. Y o k o h a m a Tir e C or p. , 3 5 8 F. 3 d 6 1 6, 6 2 2 ( 9t h Cir. 2 0 0 4)).
III.

A

N A L Y SI S

D ef e n d a nts ar g u e t h at Pl ai ntiff’s cl ai ms 1 – 1 0 ar e ti m e -b arr e d b e c a us e s h e fil e d h er
c o m pl ai nt o n A pril 6, 2 0 1 6 . ( E C F N o. 3 2-1 at 9. ) D ef e n d a nt s ar g u e Pl ai ntiff’s i nj ur y, if a n y,
a c cr u e d u p o n h er arr est o n A pril 5, 2 0 1 4, a n d s o t h e fi li n g d at e w as o n e d a y aft er t h e e x pir ati o n of
t h e t w o-y e ar st at ut e of li mit ati o ns f or h er § 1 9 8 3 cl ai m. ( E C F N o. 3 2 -1 at 9.) Pl ai ntiff r es p o n ds
t h at h er ni g ht i n S a cr a m e nt o C o u nt y J ail t oll e d t h e st at ut e of li mit ati o ns p urs u a nt t o C al. Ci v.
37a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 5 of 7

Pr o c. C o d e § 3 5 2. 1( a). ( E C F N o. 3 8 at 5 – 6 .) A c c or di n g t o Pl ai ntiff, “t h e st at ut e of li mit ati o ns
p eri o d di d n ot c o m m e n c e u ntil A pril 6, 2 0 1 4 a n d t h e a cti o n is ti m el y . ” ( E C F N o. 3 8 at 6.) T h e
p art i es d o n ot dis p ut e t h at t h e st at ut e of li mit ati o ns p eri o d e n d e d o n A pril 5, 2 0 1 6, u nl ess
Pl ai ntiff’s i n c ar c er ati o n i n S a cr a m e nt o C o u nt y J ail t oll e d t h e st at ut e of li mit ati o ns b y o n e d a y.
( E C F N o. 3 2-1 at 9; s e e als o E C F N o. 3 8 at 6. )
“ T h e a p pli c a bl e st at ut e of li mit ati o ns f or a cti o ns br o u g ht p urs u a nt t o 4 2 U. S. C. § 1 9 8 3 is
t h e f or u m st at e’s st at ut e of li mit ati o ns f or p ers o n al i nj ur y a cti o ns. ” C ar pi n t eri a V all e y F ar ms,
Lt d. v. C t y. of S a nt a B ar b ar a , 3 4 4 F. 3 d 8 2 2, 8 2 8 ( 9t h Cir. 2 0 0 3). Eff e cti v e J a n u ar y 1, 2 0 0 3, t h e
st at ut e of li mit ati o ns f or p ers o n al i nj ur y a cti o ns i n C alif or ni a is t w o y e ars. C al. C o d e Ci v. Pr o c.
§ 3 3 5. 1. M or e o v er, w h e n a f e d er al c o urt b orr o ws t h e st at e st at ut e of li mit ati o ns, it als o b orr o ws
t h e st at e’s t olli n g r ul es. C a n at ell a v. V a n D e K a m p , 4 8 6 F. 3 d 1 1 2 8, 1 1 3 2 ( 9t h Cir. 2 0 0 7). T h e
r el e v a nt t olli n g st at ut e is C al. C o d e Ci v. Pr o c. § 3 5 2. 1( a) , w hi c h pr o vi d es t h at t h e st at ut e of
li mit ati o ns is st at ut oril y t oll e d f or u p t o t w o y e ars w h e n a pl ai ntiff is “i m pri s o n e d o n a cri mi n al
c h ar g e . . . f or a t er m l ess t h a n f or lif e ” at t he ti m e a cl ai m a c cr u es . C al. Ci v. Pr o c. C o d e §
3 5 2. 1( a).
D ef e n d a nts c h all e n g e t h e st at ut or y l a n g u a g e of § 3 5 2. 1( a) , ar g ui n g, “[ b]ei n g arr est e d . . .
is n ot t h e e q ui v al e nt of b ei n g i m pris o n e d. ” (E C F N o. 4 1 at 3.) D ef e n d a nt s, citi n g Elli ott v. Cit y
of U ni o n Cit y , c o n c e d e t h at c o urts i n t his cir c uit h a v e a p pli e d t olli n g t o cl ai ms t h at a c cr u e d pri or
t o c o nti n u o us i m pris o n m e nt, b ut ar g u e t h at t h os e c o urts di d n ot a d dr ess t h e disti n cti o n b et w e e n
arr est e es a n d pris o n ers wit hi n t h e m e a ni n g of § 3 5 2. 1( a). ( E C F N o. 4 1 at 4 ; Elli ott v. Cit y of
U ni o n Cit y , 2 5 F. 3 d 8 0 0 ( 9t h Cir. 1 9 9 4 ), ( h ol di n g t h at t h at a n arr est e e’s cl ai ms w er e t oll e d d uri n g
a n e ntir e u ni nt err u pt e d p eri o d of i n c ar c er ati o n, a n d di d n ot e n d u ntil r el e as e f oll o wi n g pris o n
s e nt e n c e).) Pl ai ntiff als o cit es Elli ott , b ut o nl y t o s u p p ort t h e g e n er al pr o p ositi o n t h at f e d er al l a w
d et er mi n es w h e n a c a us e of a cti o n a c cr u es, n ot t o a d v a n c e a n y s p e cifi c ar g u m e nt as t o t olli n g.
( E C F N o. 3 8 at 5 ( citi n g Elli o tt, 2 5 F. 3 d at 8 0 1– 0 2) .)
I n Elli ott , t h e pl ai ntiff br o u g ht a § 1 9 8 3 cl ai m f or all e g e d e x c essi v e f or c e us e d d uri n g
arr est. Elli ott , 2 5 F. 3 d at 8 0 1. Aft er his arr est, t h e pl ai ntiff r e m ai n e d i n c o nti n u o us p oli c e
c ust o d y u ntil his c o n vi cti o n f or t w o f el o n y c o u nts of b att er y, u p o n w hi c h h e w as s e nt t o st at e
38a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 6 of 7

pris o n. I d. T h e q u esti o n b ef or e t h e c o urt w as “ w h et h er b ei n g c o nti n u o usl y i n c ar c er at e d pri or t o
arr ai g n m e nt c o nstit ut es b ei n g ‘i m pris o n e d o n a cri mi n al c h ar g e’ wit hi n t h e m e a ni n g of t h e
C alif or ni a dis a bilit y st at ut e . ” I d. at 8 0 2. T h e c o urt a n al y z e d C al. Ci v. Pr o c. C o d e § 3 5 2( a)( 3),
t h e pr e c urs or t o § 3 5 2. 1( a). 1 I d. As p art of its a n al ysis, t h e c o urt st at e d, “ n eit h er t his c o urt n or
t h e C alif or ni a c o urts h a v e c o nsi d er e d” w h et h er b ei n g “ i n c ar c er at e d pri or t o arr ai g n m e nt
c o nstit ut es b ei n g ‘i m pris o n e d o n a cri mi n al c h ar g e.’ ” I d. T h e c o urt d et er mi n e d t h at “[i] n t h e
a bs e n c e of c o ntr olli n g st at e pr e c e d e nt, w e m ust d e ci d e t his q u esti o n as t h e C alif or ni a S u pr e m e
C o urt w o ul d d e ci d e it. ” I d. at 8 0 2, n. 3 ( cit ati o ns o mitt e d ). T h e c o urt t h e n l o o k e d t o a si mil ar
W as hi n gt o n st at ut e a n d d et er mi n e d t h at “ t olli n g w as tri g g er e d b y t h e i n di vi d u al’s arr est a n d
i n c ar c er ati o n. ” I d. at 8 0 2.
S i n c e Elli o tt, th e C alif or ni a C o urt of A p p e al h el d as a m att er of first i m pr essi o n t h at “ a
w o ul d -b e pl ai ntiff is ‘i m pris o n e d o n a cri mi n al c h ar g e’ wit h i n t h e m e a ni n g of s e cti o n 3 5 2. 1 if h e
or s h e is s er vi n g a t er m of i m pris o n m e nt i n t h e st at e pris o n. ” A usti n v. M e di cis , 2 1 C al. A p p. 5t h
5 7 7, 5 9 7 ( Ct. A p p. 2 0 1 8), r e h’g d e ni e d ( A pr. 1 1, 2 0 1 8), r e vi e w d e ni e d (J u n e 1 3, 2 0 1 8). T h e
c o urt f o u n d t h at pr etri al c ust o d y i n a c o u nt y j ail d o es n ot r e n d er a n arr est e e “i m pris o n e d o n a
cri mi n al c h ar g e ” u n d er § 3 5 2. 1 ( a). I d. T h e c o urt h el d t h at t h e st at ut e’s t olli n g pr o visi o ns di d n ot
a p pl y d uri n g t h e ti m e t h at pl ai ntiff s p e nt i n a c o u nt y j ail . I d. T h e C alif or ni a S u pr e m e C o urt
d e ni e d r e vi e w of A usti n o n J u n e 1 3, 2 0 1 8. A usti n pr o vi d es p ers u asi v e st at e pr e c e d e nt . S e e als o
M c Cl ai n v. Br os o ws k e , N o. E D C V 1 7 – 2 3 7 7 M W F S S, 2 0 1 8 W L 1 9 1 8 5 3 3, at * 3 – 4 ( C. D. C al.
A pr. 2 0, 2 0 1 8) ( dis c ussi n g A usti n ’s h ol di n g a n d n oti n g t h at pl ai ntiff “ w as pl ai nl y n ot s er vi n g a
pris o n s e nt e n c e ” u p o n his arr est a n d s u bs e q u e nt ti m e i n a l o c al d et e nti o n c e nt er) .
N ot a bl y, i n A usti n , t h e c o urt f o u n d t h at t h e Elli ott d e cisi o n w as u n p ers u asi v e t o its
a n al ysis b e c a us e Elli ott “ pr e d at e d t h e e n a ct m e nt of s e cti o n 3 5 2. 1 ” a n d “ di d n ot h a v e t h e b e n efit
of t h e l e gisl ati v e fi n di n gs o n t his s u bj e ct. ” A usti n , 2 1 C al. A p p. 5t h at 5 9 0, n. 4. T h e c o urt
1

T h e C alif or ni a L e gisl at ur e e n a ct e d § 3 5 2( a)( 3) i n 1 8 7 2, a n d l at er a m e n d e d t h e t olli n g st at ut e b y e n a cti n g §
3 5 2. 1( a), “ a n e w, l ess g e n er o us t olli n g pr o visi o n, ” i n 1 9 9 4. A usti n v. M e di cis , 2 1 C al. A p p. 5t h 5 7 7, 5 9 2– 9 5 ( Ct.
A p p. 2 0 1 8). Alt h o u g h t h e l a n g u a g e fr o m b ot h v er si o ns of t h e st at ut e ar e si mil ar, t h e a m e n d e d st at ut e a d d e d a t w o y e ar li mit t o t h e t olli n g st at ut e s o t h at pris o n ers w o ul d “ bri n g t h eir a cti o ns a g ai nst t h e st at e i n a ti m el y m a n n er. ” I d.
at 5 9 6 ( citi n g S e n. R ul es C o m., Off. of S e n. Fl o or A n al ys es, 3 d r e a di n g a n al ysis of S e n. Bill N o. 1 4 4 5 ( 1 9 9 3 – 1 9 9 4
R e g. S ess.) A pr. 6, 1 9 9 4 ).
39a

C a s e 2: 1 6- c v- 0 0 7 2 9- T L N- C K D

D o c u m e nt 5 2

Fil e d 1 0/ 2 5/ 1 8

P a g e 7 of 7

t h or o u g hl y a n al y z e d § 3 5 2. 1 ’s l e gisl ati v e hist or y, w hi c h r e v e al e d t h at t h e l e gisl ati v e dis c ussi o ns
d uri n g t h e a m e n d m e nt pr o c ess e x pli citl y f o c us e d o n “i n m at es i n c ar c er at e d i n C alif or ni a pris o ns. ”
I d. at 5 9 6 (citi n g St ats. 1 9 9 4, c h. 1 0 8 3, § 1, p p. 6 4 6 5 – 6 4 6 6 ). F urt h er m or e , Elli ott is f a ct u all y
disti n g uis h a bl e fr o m t h e i nst a nt c as e b e c a us e Pl ai ntiff s p e nt o n e ni g ht i n c o u nt y j ail w hil e t h e
pl ai ntiff i n Elli ott r e m ai n e d i n u ni nt err u pt e d c ust o d y fr o m t h e ti m e of his arr est u ntil h e w as
c o n vi ct e d a n d s e nt t o st at e pris o n . ( E C F N o. 1 5 ¶ ¶ 2 3, 8 5); Elli ott , 2 5 F. 3 d at 8 0 1. As s u c h, t h e
Elli ott c o urt f o c us e d s ol el y o n t h e m e a ni n g of t h e st at ut e wit hi n t h e c o nt e xt of c o nti n u o us
i n c ar c er ati o n, w hi c h is n ot at iss u e i n th e i nst a nt c as e . I d. at 8 0 1 – 0 3. F or t h es e r e as o ns, t his
C o urt a gr e es wit h t h e A usti n c o urt t h at Elli ott is u n p ers u asi v e.
H er e, Pl ai ntiff ass erts t h at h er st a y i n S a cr a m e nt o C o u nt y J ail t olls t h e st at ut e of
li mit ati o ns. ( E C F N o. 3 8 at 5 – 6. ) H o w e v er, as dis c uss e d i n A usti n , Pl ai ntiff’s o v er ni g ht st a y
d o es n ot c o nstit ut e a t er m of i m pris o n m e nt i n a st at e pris o n. A usti n v. M e di cis , 2 1 C al. A p p. 5t h
at 5 9 7. B e c a us e t h e st a y w as n ot a t er m of i m pris o n m e nt i n a st at e pris o n, h er cl ai ms w er e n ot
t oll e d w hil e s h e w as i n t h e S a cr a m e nt o C o u nt y J ail. T h us, t h e C o urt fi n ds Pl ai ntiff’s § 1 9 8 3
cl ai ms st e m mi n g fr o m h er arr est w er e n ot st at ut oril y t oll e d u n d er § 3 5 2. 1 ( a). T h e st at ut e of
li mit ati o ns f or Pl ai ntiff’s § 1 9 8 3 cl ai ms e n d e d o n A pril 5, 2 0 1 6. A c c or di n gl y, t h e C o urt
dis miss es wit h pr ej u di c e Pl ai nt iff’s cl ai ms fil e d A pril 6, 2 0 1 6 as u nti m el y.
I V. C

O N C L U SI O N

F or t h e f or e g oi n g r e as o ns , t h e C o urt h er e b y G R A N T S D ef e n d a nts’ M oti o n t o Dis miss
Pl ai ntiff’s cl ai ms 1 – 1 1 , ( E C F N o. 3 2). F urt h er, t h e C o urt D E NI E S as m o ot Pl ai ntiff’s p e n di n g
R e q u est f or R e c o nsi d er ati o n , ( E C F N o. 4 9). T h e C l er k of t h e C o urt is dir e ct e d t o cl os e t his c as e.
I T I S S O O R D E R E D.

D at e d: O ct o b er 2 4, 2 0 1 8 :

/ s/ Tr o y L. N u nl e y

P D F. A
U nit e d S t at es Distri ct J u d g e
40a

